Office of Inspector General
U.S. General Services Administration



Semiannual Report
to the Congress
April 1, 2011 – September 30, 2011
GSA’s SIGNIFICANT MANAGEMENT CHALLENGES
The Congress requested the Inspectors General of major federal agencies to report on the most
significant management challenges facing their respective agencies. Our strategic planning process
commits us to addressing these critical issues. The following table briefly describes the challenges
we have identified for GSA and references related work products issued by the GSA OIG and dis-
cussed in this semiannual report

CHALLENGES	                BRIEF DESCRIPTION OF CHALLENGE	                                 PAGE

ACQUISITION 	              GSA’s procurement organization awards and administers 	         1
PROGRAMS 	                 government-wide contracts worth $183 billion. With
	                          growing programs and shrinking numbers of qualified
	                          acquisition personnel, attention to important fundamentals
	                          such as ensuring competition, meaningful price analysis,
	                          and implementation of statutory and regulatory
	                          compliance-type requirements has diminished.

INFORMATION 	              Technology applications have increased exponentially as 	       2
TECHNOLOGY 	               “E-Gov” is used to better manage operations and interface
	                          with the public, but complex integration and security issues
	                          exist.

FINANCIAL 	                GSA systems, including its financial system of record 	         No
REPORTING 	                (Pegasys), continue to have deficiencies in interoperability	   Reports
	                          and interfaces. As a consequence, GSA management 	              This
	                          continues to rely heavily on manual workarounds and 	           Period
	                          significant adjusting entries to prepare the financial
	                          statements and related note disclosures.

PROTECTION OF 	            GSA is responsible for protecting the life and safety of	       No
FEDERAL FACILITIES 	       employees and public visitors in federal buildings. The	        Reports
AND PERSONNEL 	            increased risks from terrorism have greatly expanded the	       This
	                          range of vulnerabilities. A broadly integrated security	        Period
	                          program is required.

GREENING 	                 With its major role in federal building construction and	       6
INITIATIVE—	               operations, GSA faces challenges to lead change and
SUSTAINABLE	               achieve its goals for sustainability and a Zero
ENVIRONMENTAL	             Environmental Footprint.
STEWARDSHIP

FEDERAL 	                  Faced with an aging, deteriorating inventory, GSA is 	          No
BUILDINGS 	                challenged in making the best use of available funds	           Reports
FUND	                      to deliver high performance workplaces on schedule	             This
	                          and within budget.	                                             Period

AMERICAN 	                 Mandated to obligate $5.5 billion to convert federal		 7
RECOVERY AND 	             buildings into High-Performance Green Buildings, as well
REINVESTMENT 	             as to construct federal buildings, courthouses, and land
ACT OF 2009	               ports of entry within a 20-month period, shortened planning
	                          and contracting phases will likely have continual challenges
	                          on the construction phase and contract administration
	                          workload.
                             Foreword



On behalf of the Office of Inspector General (OIG), I am pleased to provide this report to
the Members of Congress and the people of the United States. This report reflects the
OIG’s effectiveness in combating fraud, waste, and abuse in connection with the programs
and operations of GSA. This is the sixty-fifth report to the Congress since the appointment
of GSA’s first Inspector General.

For the period covered by this report, we issued 81 audit reports and identified over $285
million in funds recommended for better use and questioned costs. We also made 369
referrals for criminal prosecution, civil litigation, and administrative action. In this reporting
period, management decisions agreeing with our audit findings totaled $266.7 million while
civil settlements and court-ordered investigative recoveries totaled $130.2 million.

Our Office of Audits has continued to focus on GSA’s Multiple Awards Schedule program
audits with a concentration in preaward reviews, Recovery Act oversight, and construction
audits. Our Office of Investigations focused on major procurement fraud, construction fraud,
counterfeit product identification in the federal government supply line, government credit
card abuse, and theft of excess property. Our Office of Forensic Auditing has continued its
proactive data analysis to uncover potentially fraudulent activity.

On behalf of the U.S. Attorney General’s Financial Fraud Enforcement Task Force, I
continued to reach out to both the public and private sectors as part of a collaborative effort
to prevent and detect fraud in government contracts and procurement. I also began
reaching out to private industry to address the growing problem of counterfeit products that
may find their way into the federal supply chain through GSA contracts.

I want to express my appreciation for the accomplishments of all the OIG employees who
continue to show a dedication to effective public service. I also want to thank the Members
of Congress, OMB, and employees throughout GSA for their continued support.




Brian D. Miller
Inspector General
October 31, 2011




                                                               April 1, 2011 – September 30, 2011 i
(This page was intentionally left blank.)


ii  Semiannual Report to the Congress
                                                 Table of Contents

                                                                                                                                                                             Page

OIG Profile  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . iv

OIG Organization Chart . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . v

Summary of OIG Performance .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . vi

Fiscal Year 2011 Results .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . vii

Executive Summary  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . viii

Management Challenges  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 1

           Acquisition Programs  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 1

           Information Technology . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 2

           Greening Initiative .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 6

           American Recovery and Reinvestment Act of 2009 .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 7

           Other Initiatives .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 9

Promoting and Protecting Integrity .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 10

Forensic Auditing, Evaluation, and Analysis  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 18

Government-Wide Policy Activities .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 19

Statistical Summary of OIG Accomplishments  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 22

Appendices

           Appendix I – Significant Audits from Prior Reports .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 29

           Appendix II – Audit Report Register .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 33

           Appendix III – OIG Reports over 12 Months Old,  . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 42
             Final Agency Action Pending

           Appendix IV – Government Contractor Significant Report Findings . . . . . . . . . . 46

           Appendix V – OIG Reports Without Management Decision .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 47

           Appendix VI – Peer Review Results .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 48

           Appendix VII – Reporting Requirements . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 49

           Appendix VIII – OIG Offices and Key Officials  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 50




                                                                                                                                April 1, 2011 – September 30, 2011 iii
                                                    OIG Profile



Organization                                                    conduct investigations and reviews of potentially
                                                                fraudulent, improper, wasteful, and/or abusive
The GSA OIG was established on October 1, 1978 as
                                                                activities within selected Agency operations and
one of the original 12 OIGs created by the Inspector
                                                                programs. The evaluation and analysis program
General Act of 1978. The OIG’s five components work
                                                                conducts operational assessments of the OIG’s
together to perform the missions mandated by Congress.
                                                                central and field offices and other operating
                                                                components, implements the OIG’s Federal
The OIG provides nationwide coverage of GSA programs
                                                                Managers’ Financial Integrity Act program, and
and activities. Our components include:
                                                                undertakes special projects and analyses as required
                                                                by the Inspector General.
•• The Office of Audits, an evaluative organization
   staffed with auditors and analysts who provide
                                                              •• The Office of Administration, a professional staff that
   comprehensive coverage of GSA operations through
                                                                 provides information technology, budgetary,
   program, financial, regulatory, and system audits and
                                                                 administrative, executive resources, and personnel
   assessment of management controls. The office
                                                                 support services to all OIG offices.
   conducts attestation engagements in support of GSA
   contracting officials to carry out their procurement
   responsibilities and obtain best value for federal         Office Locations
   customers and the American taxpayers. The office
                                                              The OIG is headquartered in Washington, D.C., at GSA’s
   also provides other services to assist management in
                                                              Central Office Building. Field and regional offices are
   evaluating and improving their programs.
                                                              maintained in Atlanta, GA; Auburn, WA; Boston, MA;
                                                              Chicago, IL; Denver, CO; Fort Lauderdale, FL; Fort
•• The Office of Investigations, an investigative
                                                              Worth, TX; Kansas City, MO; Laguna Niguel, CA; New
   organization that conducts a nationwide program to
                                                              York, NY; Philadelphia, PA; Sacramento, CA; San
   prevent, detect, and investigate illegal and/or improper
                                                              Francisco, CA; and the Washington, D.C. area. A contact
   activities involving GSA programs, operations, and
                                                              list of OIG offices and key officials is provided in
   personnel.
                                                              Appendix VIII.
•• The Office of Counsel, an in-house legal staff that
   provides legal advice and assistance to all OIG            Staffing and Budget
   components, represents the OIG in litigation arising
                                                              As of September 30, 2011, our on-board staffing level
   out of or affecting OIG operations, and manages the
                                                              was 313 employees. The OIG’s Fiscal Year (FY) 2011
   OIG legislative and regulatory review.
                                                              budget was $58.8 million with an additional $2.2 million
                                                              in funds appropriated under the American Recovery and
•• The Office of Forensic Auditing, Evaluation, and
                                                              Reinvestment Act of 2009 (Recovery Act/ ARRA).
   Analysis, a multidisciplinary staff that employs
   innovative auditing and investigative techniques to




iv  Semiannual Report to the Congress
                                OIG Organization Chart


                                       Inspector General
                                          Brian D. Miller
                                    Deputy Inspector General
                                       Robert C. Erickson

      Office of Counsel to the IG                                    Office of Forensic Auditing,
              Richard Levi                                             Evaluation, & Analysis
           Counsel to the IG                                          Patricia Sheehan, Director
     Office of Communications &
        Congressional Affairs                                        Management         Forensic
              Dave Farley                                            Evaluations        Auditing
                Director


Office of Administration                  Office of Audits                    Office of Investigations
     Larry Lee Gregg                    Theodore R. Stehney                    Geoffrey Cherrington
 AIG for Administration                   AIG for Auditing                     AIG for Investigations


   Budget and Financial                    Audit Planning, Policy,                 Investigations Operations
   Management Office                       and Operations Staff                             Division


                                             Administration &                         Internal Operations
      Facilities and
                                            Data Systems Staff                              Division
     Services Office


                                           Special Projects Office                     Regional Offices
    Contracting Office                                                                  Washington, DC
                                                                                           New York
                                          Finance and Information                           Atlanta
                                          Technology Audit Office                          Chicago
  Information Technology                                                                 Kansas City
         Division                                                                         Fort Worth
                                               Real Property                            San Francisco
                                                                                            Auburn
                                                Audit Office
    Human Resources                                                                         Boston
       Division                                                                          Philadelphia

                                            Acquisition Programs
       Executive                                Audit Office
                                                                                            Sub-Offices
    Resources Staff/                                                                           Denver
  Human Capital Officer                                                                    Laguna Niguel
                                             Field Audit Offices                           Ft. Lauderdale
                                                  New York                                  Sacramento
                                                Philadelphia
                                                   Atlanta
                                                  Chicago
                                                Kansas City
                                                 Fort Worth
                                               San Francisco




                                                                          April 1, 2011 – September 30, 2011 v
                                    Summary of OIG Performance



                                          April 1, 2011 – September 30, 2011




        Total financial recommendations                                                 $285,694,165
        These include:
        •• Recommendations that funds be put to better use                              $220,167,642
        •• Questioned costs                                                              $65,526,523
        Audit reports issued                                                                     81
        Audit memorandums provided to GSA                                                        17
        Management decisions agreeing with audit recommendations                        $266,667,102


        Referrals for criminal prosecution, civil litigation, & administrative action           369
        Indictments and informations on criminal referrals                                       49
        Cases accepted for criminal prosecution                                                  32
        Cases accepted for civil action                                                           9
        Successful criminal prosecutions                                                         39
        Civil settlements                                                                        10
        Contractors/individuals suspended and debarred                                           91
        Employee actions taken on administrative referrals involving GSA employees               12
        Civil settlements and court-ordered and investigative recoveries                $130,238,540




vi  Semiannual Report to the Congress
                                       Fiscal Year 2011 Results



During Fiscal Year 2011, OIG activities
resulted in:
•• Almost $460 million in recommendations that funds        •• 85 criminal indictments/informations and 64
   be put to better use and in questioned costs. If            successful prosecutions on criminal matters referred.
   adopted, these recommendations ultimately result in
   savings for the taxpayer.                                •• 28 civil settlements.

•• 139 audit reports and 29 audit memorandums that          •• 26 employee actions taken on administrative referrals
   assisted management in improving the efficiency and         involving GSA employees.
   effectiveness of Agency operations.
                                                            •• 88 contractor/individual suspensions and 61
•• Over $571 million in management decisions agreeing          contractor/individual debarments.
   with audit recommendations; $376.1 million in
   criminal, civil, administrative, and other recoveries.   •• 2710 Hotline calls and letters received of which 167
                                                               were referred for criminal or civil investigations, 88
•• 260 new investigations opened and 233 cases closed.         were referred to other agencies for follow up, and 166
                                                               were submitted to GSA for review and appropriate
•• 71 case referrals (124 subjects) accepted for criminal      administrative actions.
   prosecution and 18 case referrals (22 subjects)
   accepted for civil litigation.




                                                                                  April 1, 2011 – September 30, 2011 vii
                                            Executive Summary



Summary of Results                                            to the Federal Acquisition Service (FAS) Commissioner,
                                                              we identified that vendors: provided information that was
During this semiannual period, the OIG continued to
                                                              not current, accurate, and/or complete in support of their
direct its auditing and investigative resources toward
                                                              proposed prices; had minimal or no non-federal
what it has identified as the major management
                                                              commercial customers, making it impossible to use non-
challenges facing the Agency and achieved significant
                                                              governmental commercial sales as a basis for
results. Since April 1, 2011, the OIG has issued 81 audit
                                                              determining price reasonableness; and, supplied labor
reports and referred 369 cases for criminal prosecution,
                                                              that did not meet the minimum educational or experience
civil litigation, or administrative action. At the close of
                                                              qualifications required by the contracts (page 1).
this fiscal year, we had made almost $460 million in
recommendations that funds be put to better use and in
                                                              Information Technology. GSA faces challenges in
questioned costs, $285 million of which occurred in this
                                                              providing effective and reliable IT systems and solutions.
semiannual period alone. In addition, our actions led to
                                                              For instance, our audit of the Acquisition Career
civil settlements and court-ordered and investigative
                                                              Management Information System (ACMIS) found that
recoveries of over $130 million this period, and $376.1
                                                              GSA spent in excess of $5.3 million in taxpayer funds on
million for the fiscal year.
                                                              a government-wide system that is unreliable because
                                                              system development and maintenance was not properly
In its effort to promote economy and efficiency throughout
                                                              managed (page 2). Additionally, our audits of the
Agency programs, the OIG focused specifically on
                                                              Agency’s IT Security Program identified weaknesses
audits of GSA’s acquisition, information technology,
                                                              related to security misconfigurations in databases that
greening, and the American Recovery and Reinvestment
                                                              house sensitive data (page 3) and that contractor
Act of 2009 (Recovery Act) initiatives; investigations of
                                                              personnel supporting two of the reviewed systems had
fraud, waste, and abuse by GSA employees and
                                                              not undergone government background investigations
contractors; and litigation support of civil fraud actions
                                                              despite policy requirements (page 3).
and criminal prosecutions. Below are some of the
highlights of the OIG’s actions during this semiannual
                                                              Greening Initiative. Recent regulatory initiatives have
period.
                                                              given GSA additional responsibilities to lead the change
                                                              towards sustainability in federal construction, building
Management Challenges Highlights                              operations, and acquisition. The Agency, however, faces
The OIG continued to provide high quality audit               challenges in implementing its Strategic Sustainability
recommendations and advice so that GSA can lead the           Performance Plan and in achieving its goal of a Zero
government in economical contracting and procurement.         Environmental Footprint. Our audit of GSA’s Alternative
The focus this semiannual period was on acquisition           Fuel Vehicle surcharge payments found that the Agency
programs, information technology, greening initiatives,       needs to improve its monitoring of these payments to
and Recovery Act projects. Here are a select few audits       prevent non-compliance with federal regulations (page 6).
and memorandums that identify major challenges facing
GSA.                                                          Recovery Act. The Recovery Act provided GSA with
                                                              $5.5 billion to convert federal buildings into “High-
Acquisition Programs. GSA provides federal agencies           Performance Green Buildings” as well as to construct
with billions of dollars of services and products. During     federal buildings, courthouses, and land ports of entry.
this reporting period, the Office of Audits performed 52      The Recovery Act mandated that funds be fully obligated
preaward audits of contracts with an estimated value of       by the end of FY 2011 and, as such, this short timeframe
almost $4 billion. Because of their pre-decisional,           strained the capabilities of project teams.
advisory nature, the OIG’s preaward audits play a crucial
role in improving the government’s negotiating position       During this semiannual period, we issued a Recovery
and realizing millions of dollars in savings on negotiated    Act Report on the Thurgood Marshall U.S. Courthouse,
contracts. These savings are mainly the result of report      which found that the Public Building Service (PBS)
findings identifying recurring issues. In a memorandum        violated the Federal Acquisition Regulation (FAR) and


viii  Semiannual Report to the Congress
                                             Executive Summary



the Competition in Contracting Act by awarding the             Civil Recoveries. The GSA OIG has consolidated
Construction Manager as Constructor (CMc) contract at          investigative efforts related to civil recoveries. Chief
a firm-fixed price at nearly 60 percent more than the          among our civil recoveries this semiannual period was a
agreed-upon guaranteed maximum price (page 7).                 $20.4 million settlement by SAIC to resolve allegations
Another Recovery Act report on the Energy Retrofit for         of false claims. This settlement resulted from a joint qui
the New Carrollton Federal Building revealed that the          tam investigation involving the Justice Department, the
award exceeded the underlying bid; there was a large           Defense Criminal Investigative Service, and the Naval
variance between the independent government estimate           Criminal Investigative Service (page 11). Also to resolve
and the award; and, there was an incomplete assessment         false claims allegations, FedEx agreed to pay $8 million
of an energy conservation measure (page 7).                    after a joint investigation between the GSA OIG, the
                                                               DOJ OIG, and the Department of Agriculture OIG
In addition, the OIG issued a memorandum on the                revealed that FedEx couriers were taking advantage of
purchase of photovoltaic panels with Recovery Act              “security-delivery exception codes” to excuse their own
money for the Paul Simon Federal Building. The panels          failures to deliver packages on time without reimbursing
were assembled in China, thus, violating Recovery Act          agencies as required by the company’s timely delivery
requirements (page 8).                                         guarantee (page 11).

Promoting and Protecting                                       Additionally, the OIG continues to investigate Trade
                                                               Agreements Act (TAA) violations. Two companies,
Integrity Highlights                                           Premier and Companies, Inc., and Palm Business
The OIG combated fraud, waste, and abuse through               Supply, agreed to pay the United States $1.75 million
civil and administrative recoveries and criminal               and $135,000 respectively to settle false claims act
investigations during this semiannual period. When             allegations when investigators found that they knowingly
systemic issues are identified through investigations,         misrepresented that the products sold under government
they are shared with GSA management for appropriate            contracts were manufactured in the U.S., when many
corrective actions. During this period, criminal, civil, and   were actually manufactured in China (page 11).
other monetary recoveries totaled over $130 million.
                                                               Criminal Investigations. Investigations uncovered two
Government Infrastructure Protection Initiative                separate payphone scams intended to bilk the
(GIPI). The GSA’s Office of Investigations created GIPI        government and private companies of millions. The
to combat the proliferation of counterfeit information         individuals involved exploited the Federal Commun-
technology products in the federal supply chain.               ications Commission’s regulation that allows payphone
Partnering with the Intellectual Property Rights Center        service providers to collect $.49 for each call made to a
of Immigration and Customs Enforcement (ICE), the              toll-free number by rigging phones to repeatedly dial
GSA OIG conducted an investigation of Chun-Yu Zhao,            these numbers (page 12). As part of a proactive
Donald Cone, and JDC Networking for their role in the          investigation into a bribery/ kickback scheme involving
sale of counterfeit Cisco products to GSA suppliers and        multiple government officials, Gary Thompson, a GSA
at least one government agency from a company based            Building Manager, was sentenced to nine months’
in China. Zhao and Cone were charged with conspiracy,          incarceration and a court-ordered forfeiture of $55,000
money laundering, wire fraud, immigration fraud, and           for accepting cash bribes in return for maintenance
intellectual property rights violations. Zhao was              contracts at GSA facilities (page 12). A Navy Petty
sentenced to 60 months’ imprisonment and three years           Officer was also convicted of fraud for accepting
of supervised release, and ordered to pay over $2.7            kickbacks (page 12). During this semiannual period, our
million in restitution (page 10). This and other cases         agents also investigated computer theft schemes,
described in this report indicate the pivotal role that        fraudulently obtained citizenship, and multiple fleet
investigations into intellectual property rights play in       credit card scams (page 13).
protecting government infrastructure from this significant
vulnerability.


                                                                                     April 1, 2011 – September 30, 2011 ix
                                         Executive Summary



WPA Artwork. The GSA OIG continued its collaborative      suspension and debarment actions based on current
campaign to recover and restore artwork commissioned      and previous OIG referrals (page 17).
in the New Deal Era to the United States. During this
semiannual period, we recovered six pieces and            Hotline. The OIG Hotline provides an avenue for
identified 20 other potential WPA artworks (page 16).     employees and other concerned citizens to report
                                                          suspected wrongdoing. The OIG received 1,125
Suspension and Debarment. During this reporting           contacts, from which 209 Hotline cases were initiated
period, the OIG made 180 referrals for consideration of   (page 17).
suspension or debarment to GSA, and GSA issued 91




x  Semiannual Report to the Congress
                                          Management Challenges



Since 1998, we have identified and shared with Congress and senior GSA management those areas and issues we
believe to be the major challenges facing the Agency. (This year’s list is summarized on the front inside cover of this report.)
During this reporting period, we continued our work addressing these challenges by recommending corrective actions,
and working with management to improve Agency operations. The following highlights some of our activities.

Acquisition Programs                                              and administrative and overhead rates were too high,
                                                                  and an incorrect methodology was used in calculating
GSA provides federal agencies with billions of dollars of         the direct labor base; it included indirect and overqualified
products and services through various types of contracts.         employees. The third audit showed that the lease factors
As of September 30, 2011, there were over 19,000                  used were outdated and recommended the GSA
Multiple Award Schedule (MAS) contracts under GSA’s               contracting officer require submission of updated
procurement program with over $39.2 billion in annual             information. We suggested that the new data be: (1)
sales. We oversee this program by conducting attestation          representative of current market/economic conditions,
engagements and audits of these contracts. Historically,          (2) tied to a financial index, and (3) updated on a
for every dollar invested in our contract audits, we              quarterly basis. This audit also showed that the existing
achieve at least $10 in lower prices or more favorable            basis of award customer offered minimal price protection
contract terms and conditions for the benefit of the              to the government. The audit identified better end-user
government and the taxpayer.                                      pricing with a different customer, which if targeted as the
                                                                  new basis of award and used to negotiate comparable
Significant Preaward Audits                                       discounts, would help the government recognize
The pre-decisional, advisory nature of preaward audits            substantial cost savings.
distinguishes them from other audit products. This
                                                                  The Office of Management and Budget (OMB) has long
program provides vital and current information enabling
                                                                  recognized both the value of our audit coverage and the
contracting officers to significantly improve the
                                                                  dichotomy between the growth in GSA’s contract
government’s negotiating position and to realize millions
                                                                  activities and our limited audit resources. Beginning in
of dollars in savings on negotiated contracts. During this
                                                                  Fiscal Year (FY) 2004, OMB supplemented our financial
period, we performed preaward audits of 52 contracts
                                                                  support, through Federal Acquisition Service (FAS)
with an estimated value of almost $4 billion. We
                                                                  contract program revenue, so that we could increase our
recommended more than $220 million in funds to be put
                                                                  oversight in this area. These additional funds allowed us
to better use. Management decisions were made on 32
                                                                  to hire staff to support expanded audit and attestation
of our preaward audit reports, which recommended over
                                                                  engagement activities, primarily preaward examinations
$201 million of funds to be put to better use, and manage-
                                                                  (with minor increases in performance audits as well).
ment agreed with all of our recommended savings.
                                                                  Starting in FY 2010, OMB replaced the supplement by
Three of our more significant audits were of MAS                  increasing the OIG’s direct appropriations to help ensure
contracts with projected government-wide sales totaling           continued service in this area. As in the past, we will
more than $853 million. These audits resulted in                  work closely with FAS to develop preaward and contract
recommendations of $154 million in funds to be put to             performance assessment programs that strengthen
better use. Two of the three audits disclosed that                government-wide contracts and provide value for the
alternate proposals based on cost build-up information            taxpayers.
were required from the vendors. One vendor did not
                                                                  Audit Memorandum to the FAS Commissioner:
have sufficient commercial sales to use as a basis for
                                                                  Major Issues from Fiscal Year 2010 Multiple Award
determining fair and reasonable pricing, and the other
                                                                  Schedule Preaward Audits
was unable to adequately show that the offered labor
categories were comparable to those offered                       Dated September 20, 2011
commercially. The alternate cost build-up information
they provided showed that the proposed rates were                 While conducting our FY 2010 preaward contract audits,
overstated in several respects. The proposed general              we identified three recurring issues that impact the

                                                                                         April 1, 2011 – September 30, 2011 1
                                          Management Challenges



Acquisition Programs (continued)

GSA’s MAS program. While we audit a limited number              We believe FAS should take action to ensure that its
of the contracts in GSA’s Schedules Program, the high           contracting officers appropriately and consistently
rates at which these three issues recur suggest that            evaluate discount information. This evaluation should
similar concerns would be uncovered in a comprehensive,         include consideration of the difference between
program-wide audit. Therefore, we provided this                 “standard” and “non-standard” discounts, the frequency
information to GSA so they can decide how to best               and range of discounts, and the impact of rebates. If
address them. First, the majority of vendors we reviewed        FAS continues to allow vendors with minimal or no
provided information that was not current, accurate,            commercial sales to remain on Schedule, it should take
and/or complete in support of their proposed prices.            appropriate steps to ensure that (1) GSA Schedule
Second, nearly half of the vendors we reviewed had              prices meet the stated goal of being the vendor’s best
minimal or no non-federal commercial customers,                 price, and (2) there is an effective mechanism to enforce
making it impossible to use non-governmental                    the price reductions clause of the contract. Finally, we
commercial sales as a basis for determining price               suggest that FAS take appropriate action to ensure that
reasonableness. Last, over a quarter of the vendors we          vendors provide ordering agencies with individuals who
reviewed supplied labor that did not meet the minimum           meet the labor qualifications called for under the
educational or experience qualifications required by the        contract.
contracts.

We performed 49 preaward audits in FY 2010, 24 of
                                                                Information Technology
which were based on commercial pricing. In 20 cases             Improved planning, development, and implementation of
(83 percent), the commercial sales practice data the            information technology (IT) systems and services are
contractor submitted to support its proposed pricing            needed to ensure quality data and to support business
reflected non-current, inaccurate, and/or incomplete            decisions. GSA management faces challenges in meeting
information. If the greater discounts and terms identified      two strategic business goals of (1) providing effective and
in these 20 audits could be negotiated, the government          reliable IT systems and solutions and (2) providing
would realize overall cost avoidances of $116.5 million.        balanced stewardship of information and technology.
                                                                Challenges exist because GSA systems often do not
In 21 of the 49 (43 percent) audits we performed, we            integrate with each other, resulting in duplication of
found that commercial customers accounted for five              business processes, cost inefficiencies, and customer
percent or less of the vendor’s total sales. In 12 instances,   dissatisfaction.
the vendor had no commercial sales. Allowing vendors
with minimal or no commercial sales to remain on GSA            Audit of the Acquisition Career Management
Schedules creates a situation in which customers could          Information System (ACMIS)
wind up paying significantly higher prices than warranted.      Report Number A090023/O/A/F11006, dated July 20, 2011

We audited 37 professional services contracts and               GSA spent in excess of $5.3 million in taxpayer funds on
found 10 instances in which vendors charged customer            a government-wide system that cannot be used for its
agencies for labor that did not meet the minimum                intended purpose. The data in ACMIS cannot be relied
educational or experience qualifications called for by          upon to provide agencies with useful information for
their contracts. In these cases, customers were                 training, staffing, and budgeting decisions related to the
overcharged approximately $3 million for levels of              acquisition workforce. In addition, poor system
service they did not receive.                                   functionality and help desk support contribute to user
                                                                dissatisfaction. ACMIS failed because GSA’s Office of




2  Semiannual Report to the Congress
                                       Management Challenges



Information Technology (continued)

Acquisition Policy and the Federal Acquisition Institute     FY 2011 Office of Inspector General FISMA Audit of
(FAI) did not properly manage and oversee system             GSA’s Information Technology Security Program
development and maintenance, including contract              Report Number A110160/O/F/F11008, dated September 28,
management. To develop a replacement system, the             2011
Office of Governmentwide Policy must address
deficiencies that caused the ACMIS to fail. Attention to     The Federal Information Security Management Act of
contract management, system development lifecycle            2002 (FISMA) directs IGs to perform an annual
principles, and accountability for the new system are        independent evaluation of their respective Agency’s
essential to ensure future success. During our audit, FAI    information technology security program and controls
decided to modify an existing system to function with the    for select systems. Accordingly, we reviewed three
capabilities necessary to replace ACMIS.                     GSA systems to determine if GSA has developed,
                                                             documented, and implemented an Agency-wide
We recommended that the Associate Administrator,             information security program. The reviewed systems
Office of Governmentwide Policy:                             were (1) AT&T Operational Support, (2) Electronic
                                                             Project Management (ePM), and (3) SmartPay-Citibank.
•• Implement controls to ensure data reliability.
•• Work with the Office of Federal Procurement Policy to     We concluded that GSA’s Chief Information Officer
   establish controls for agency accountability for system   (CIO) continues to take steps to improve the Agency-
   use and data accuracy. Such controls may include          wide IT Security Program. For example, the CIO has
   centralized data entry.                                   updated GSA’s IT Security Policy, published procedural
                                                             guidance on a variety of information security topics, and
•• Ensure development of appropriate functionality,          expanded the IT Security Program to include additional
   including system navigation, reporting and tracking       technical testing requirements. However, we found that
   features, system interfaces, and an automatic             additional steps are needed to strengthen GSA’s IT
   password reset function.
                                                             Security Program in five key areas.
•• Ensure contracts awarded for the development,
   implementation, and maintenance of the system             •• We identified weaknesses relating to security
   contain proper requirements related to user support,         misconfigurations and unpatched database or
   including development of specific help desk                  operating system software. As a result, these sys-
   deliverables.                                                tems and their sensitive data were placed at an
                                                                increased risk of inappropriate access, modification,
•• Ensure controls are in place for proper oversight of
                                                                or destruction.
   help desk performance.
                                                             •• We reviewed two public GSA social media websites
•• Establish controls to ensure proper oversight and
                                                                and identified areas needing additional oversight and
   accountability for the development, implementation,
                                                                monitoring to better manage IT security risks. We
   and maintenance of the system that will replace
                                                                identified that automated programs and malicious
   ACMIS, including contract management.
                                                                users could post inappropriate information.
•• Ensure that the development, implementation, and             Additionally, we identified a configuration weakness
   maintenance of the system that will replace ACMIS            that placed the confidentiality of users’ private
   adhere to system development life cycle guidelines,          communications at risk.
   including applicable GSA Orders and the GSA
                                                             •• We identified sensitive documents on a public GSA
   System Development Life Cycle Guidance Handbook.
                                                                website, including IT security documentation, placing
                                                                GSA systems and data at increased risk.
The Associate Administrator concurred with the report
recommendations.


                                                                                  April 1, 2011 – September 30, 2011 3
                                          Management Challenges



Information Technology (continued)

•• Contractor personnel supporting two of the                       •	 Monitoring whether GSA system officials are
   contractor systems we reviewed had not undergone                    adhering to this guidance.
   government background investigations despite
                                                                •• Ensure that appropriate warning banners are
   contract and GSA policy requirements. Government                displayed?
   background investigations are necessary to ensure
   that contractor personnel are suitable to access             The CIO concurred with our report recommendations.
   GSA systems and data.
                                                                The following describes the systems we tested:
•• All three reviewed systems deviated from GSA’s IT
   Security Policy regarding warning banners. Warning           The AT&T Operational Support System1 is a
   banners are important since they caution individuals         commercial system selected to support the FAS Networx
   with malicious intent of the potential legal ramifications   Universal and Enterprise contracts for telecommunication
   of their act.                                                products and services. This moderate impact system2
                                                                serves as a single point of entry for GSA and customer
We recommended that GSA’s Chief information Officer             agencies to place orders, pay bills, report service
take actions to:                                                problems, and perform other customer service-related
•• Strengthen configuration management practices by:            tasks online. This moderate impact system offers users
                                                                customer support, service management, inventory
  •	 Ensuring that authenticated operating system               management, and program management capabilities.
     testing is conducted for all GSA systems.
  •	 Updating the GSA IT Security Policy and related            The Electronic Project Management (ePM) 3 system
     guidance to clarify technical testing frequency            is a moderate impact system intended to standardize
     requirements.                                              Public Buildings Service (PBS) project and program
                                                                management activities, and to ensure effective and
•• Improve security of GSA’s social media technologies          timely information sharing to both internal and external
   by:                                                          stakeholders. The ePM system is used by GSA
  •	 Updating GSA’s guidance, including policies, for           executives, as well as architects, engineers, and
     social media and IT security to address risks              contractors to track and report on GSA’s overall portfolio
     specific to social media.                                  of design and construction programs. As a tool for
                                                                managing PBS design and construction projects, this
  •	 Strengthening the existing reviews of GSA’s social         system also serves as the central repository for
     media sites to ensure that the inventory is complete       managing project documentation and communication
     and the risks identified in this report are addressed.     for the entire project lifecycle.
  •	 Establishing IT security standards for social media
     platforms widely used at GSA.
•• Clarify labeling requirements for GSA’s sensitive
   security documentation.                                      1 FY 2011 Office of Inspector General Information Technology
•• Improve personnel security of commercial systems             Security Audit of the AT&T Operational Support System (OSS),
                                                                Report Number A110096/Q/F/P11009, dated September 30,
   used to provide government services by:
                                                                2011.
                                                                2 For more information on system impact levels, refer to FIPS PUB
  •	 Developing guidance to assist GSA system officials
     in identifying contractor personnel in positions that      199, Standards for Security Categorization of Federal Information
                                                                and Information Systems, February 2004.
     require government background investigations.              3 FY 2011 Office of Inspector General Information Technology

                                                                Security Audit of the Electronic Project Management System;
                                                                Report Number A110114/P/F/R11014, dated September 30,
                                                                2011.


4  Semiannual Report to the Congress
                                          Management Challenges



Information Technology (continued)

The SmartPay-Citibank System4 is a moderate impact              Region developed a dashboard application to create
system, deployed by Citibank N.A. of Sioux Falls, South         tracking numbers, and to support management decisions
Dakota (Citibank) to fulfill the SmartPay® 2 contract           and reporting. Additionally, the Southeast Region
requirements. The SmartPay-Citibank system features             developed a Microsoft Access database, Workflow
a suite of web-based tools for managing government              application, and an eApproval application to perform
charge cards. In addition to providing charge cards and         similar functions.
customer support, the suite includes program
management functions such as establishing and                   We recommended that the FAS Commissioner should
maintaining cardholder accounts and analyzing                   ensure that:
spending patterns. In addition, the system provides
cardholder functions; these allow cardholders to review         •• A fully-functional procurement system is designed for
their statements and make travel card payments.                    FAS's Assisted Acquisition Service that incorporates
                                                                   a standardized procurement process. Specifically, the
Audit of the Information Technology Solutions                      Assisted Acquisition Service needs to develop short-
Shop (ITSS) System Performance and Functionality                   term actionable goals to address missing
                                                                   functionalities within ITSS and work toward a long-
Report Number A100123-2/Q/F/P11006, dated May 16,
                                                                   term solution for a procurement system.
2011
                                                                •• Standardized training is developed for ITSS system
                                                                   users.
This audit disclosed that GSA’s ITSS system lacks a
fully-automated and convenient means for processing             The FAS Commissioner concurred with the report
procurements from pre-solicitation to close-out. As a           recommendations.
result, ITSS users rely on manual processes and
external applications to complete the procurement               Audit of GSA’s Transition from FTS2001 to Networx
process.                                                        Report Number A110086/O/F/F11007, dated September 22,
                                                                2011
ITSS was developed in 1997, as an on-line, web-based
purchase order system to facilitate the development of          This audit found that the GSA’s Office of the CIO (OCIO)
delivery and purchase orders. GSA attempted to replace          did not complete the transition of GSA telecommunications
ITSS through the award of a series of task orders issued        services to Networx prior to the expiration of the
between 2002 and 2005. However, FAS was unable to               FTS2001 contracts. Consequently, GSA remains
implement the replacement system and consequently               partially dependent on antiquated telecommunications
returned to ITSS.                                               services that impede a seamless, secure, and
                                                                interoperable federal telecommunications environment.
OMB Circular A-130 Management of Information
Resources specifies that agencies must develop                  During the planning and execution of the transition
information systems that facilitate interoperability,           process, the OCIO overlooked best practices suggested
application portability, and scalability of electronic          by the Government Accountability Office and the FAS
applications across networks of heterogeneous                   Project Management Office. Specifically, the OCIO did
hardware, software, and telecommunications platforms.           not properly maintain its existing telecommunications
Some regional client service centers have developed             inventory; therefore it was unavailable for verification
their own applications and tools to facilitate the workflow     during the process. GSA began its conversion after the
ITSS does not provide. For example, the National Capital        Networx contract award using the Transition Baseline
                                                                Inventory provided by the Networx Project Management
                                                                Office. To compensate, the OCIO simultaneously
4
 FY 2011 Office of Inspector General Information Technology     validated the prior telecommunications inventory as it
Security Audit of the SmartPay-Citibank System, Report Number   was moving to Networx.
A110095/Q/F/P11008 dated September 30, 2011.


                                                                                     April 1, 2011 – September 30, 2011 5
                                        Management Challenges



Information Technology (continued)

In the process, the OCIO is relying on the FAS to assist     Fleet is a comprehensive leasing program that
with migrating external customer agencies housed in          provides vehicles to customer agencies and offers
GSA facilities. Also, GSA identified key agency              complete management support over the lifecycle of
personnel who would perform transition duties in             those vehicles. To comply with the Energy Policy Act
addition to their existing responsibilities. Currently,      (EPACT) of 2005, Fleet charges an incremental cost
GSA’s OCIO is still moving GSA to Networx via FTS2001        to the customer agencies in the year an AFV is
bridge contracts.                                            acquired. This incremental cost is assessed as an
                                                             AFV surcharge.
We recommended that the CIO:
                                                             All customer agencies leasing from Fleet had year-end
•• Establish an inventory and an inventory management        balances (either positive or negative) resulting from
   and validation system to ensure that tele-                their AFV surcharge payments in FY 2010. Fleet
   communications inventory records remain accurate;         carried these balances into the following fiscal year,
   and                                                       earmarking the funds for specific agencies. This allows
                                                             customer agencies to continually over-obligate
•• Document identified internal setbacks, obstacles
                                                             incremental surcharge payments, creating the
   encountered, and the lessons learned during the
                                                             opportunity for agencies to “park” funds with Fleet and
   transition from FTS2001 to Networx to facilitate the
                                                             placing GSA at risk of not complying with federal
   execution of future transitions.
                                                             regulations. Agencies that use appropriated, fixed-
The CIO concurred with the report recommendations.           year funds to pay their AFV surcharges could place
                                                             GSA in violation of the Bona Fide Needs rule if GSA
Greening Initiative – Sustainable                            incurs an obligation against these expired funds.
                                                             Furthermore, if a customer agency pays a future year’s
Environmental Stewardship                                    or previous year’s AFV surcharge payment out of
Under recent regulatory initiatives, GSA has additional      current-year funds, it is likely in violation of the Anti-
responsibilities to lead change toward sustainability in     Deficiency Act.
federal construction, building operations, acquisition,
and government-wide policy. The Agency, however,             Also, in order to promote AFV utilization, the EPACT
faces challenges in implementing its Strategic               of 2005 requires that the financial burden associated
Sustainability Performance Plan and achieving its goal       with the purchase of AFVs be spread across the entire
of a Zero Environmental Footprint. Three obstacles           federal fleet. Fleet allocates EPACT-exempt agency
exist for successful implementation. First, GSA needs a      payments directly back to those agencies. Instead,
transparent management framework to coordinate its           these payments should be collected to relieve the
business lines with its external partners. Second, GSA       financial burden of AFV acquisitions across the entire
needs metrics that align effectiveness of actions with its   federal fleet, not that of specific agencies.
mission. Third, GSA needs to capture accurate and
complete data to monitor and evaluate sustainable            We recommended that the FAS Commissioner:
activities.
                                                             •• Modify AFV surcharge payment monitoring practices
Review of GSA Fleet’s Monitoring of Alternative                 to ensure compliance with federal regulations; and
Fuel Vehicle Surcharge Payments                              •• Revise the current practice of allocating AFV
Report Number A100188/Q/A/P11007, dated June 9, 2011            surcharges paid by EPACT-exempt agencies to those
                                                                specific agencies in an effort for these funds to benefit
Our review of Alternative Fuel Vehicle (AFV) surcharge          the entire AFV leasing program.
payments disclosed that GSA’s Fleet needs to improve
                                                             The FAS Commissioner concurred with the report
its monitoring of these payments.
                                                             recommendations.


6  Semiannual Report to the Congress
                                       Management Challenges



American Recovery                                            We recommended that the PBS Commissioner ensure
                                                             that controls are in place to prevent CMc construction
and Reinvestment Act of 2009                                 options from being exercised at firm-fixed prices that
The American Recovery and Reinvestment Act of 2009           exceed the agreed-upon GMP and that firm-fixed price
(Recovery Act) provided GSA with a $5.55 billion             contracts are negotiated in final prior to award.
appropriation for its Federal Buildings Fund, and in
accordance with the Act, GSA’s PBS is using the funds        The PBS Commissioner concurred with the report
to convert federal buildings into High-Performance           recommendations.
Green Buildings as well as to construct federal buildings,
courthouses, and land ports of entry. The Recovery Act       Recovery Act Report – Energy Retrofit for the New
mandates that $5 billion of the funds were to be obligated   Carrollton Federal Building Review of PBS’s
by September 30, 2010, and that the remaining funds          Limited Scope and Small Construction Projects
are obligated by September 30, 2011. Under this              Funded by the American Recovery and
mandate GSA’s project teams have had to plan and             Reinvestment Act of 2009
contract for projects within extremely short timeframes.
                                                             Report Number A090184/P/R/R11010, dated June 13, 2011
Even with the addition of new employees and contract
support staff, meeting these deadlines has strained the
                                                             Our audit of this $11,681,779, minority owned business
capabilities of the project teams even before the
                                                             8(a) acquisition disclosed a discrepancy between the
beginning of actual construction for these projects. The
                                                             award document and the underlying bid, as well as
GSA OIG is conducting oversight activities including
                                                             violations of GSA policy. We found that (1) the award
internal audits, attestation engagements, and memor-
                                                             document exceeded the underlying bid by $4,863,443;
andums of construction and modernization projects
                                                             (2) the price reasonableness determination was
funded by the Recovery Act.
                                                             questionable because of the large variance between the
Recovery Act Report – Thurgood Marshall U.S.                 independent government estimate and the award; and
Courthouse Project Audit of PBS’s Major                      (3) there was an incomplete assessment of one energy
Construction and Modernization Projects Funded               conservation measure.
by the American Recovery and Reinvestment Act
                                                             We recommended that the Regional Administrator,
of 2009
                                                             National Capital Region, ensure that the award amount
Report Number A090172/P/R/R11012, dated August 19,           is corrected. The Regional Administrator concurred with
2011                                                         the report recommendation.
This audit disclosed that PBS exercised an option under      Recovery Act Report – Improper Obligation of
this contract in a manner that represented a cardinal        Construction Contingency Funds Audit of GSA’s
change to the contract and violated both Federal             Major Construction and Modernization Projects
Acquisition Regulation (FAR) and Competition in              Funded by the American Recovery and
Contracting Act of 1984 (CICA) requirements.                 Reinvestment Act of 2009
                                                             Report Number A090172/P/R/R11016, dated September
PBS exercised the construction phase option of this
                                                             30, 2011
Construction Manager as Constructor (CMc) contract for
a firm-fixed price of $201,903,657, or nearly 60 percent
                                                             This audit found that GSA improperly awarded two
more than the $126,862,518 guaranteed maximum price
                                                             contract modifications for the Department of Commerce
(GMP). By not competing the award, PBS effectively
                                                             Building modernization project in the National Capital
made the option a sole source procurement. In addition,
                                                             Region. These modifications obligated construction funds,
PBS based its price reasonableness determination on
                                                             but did not satisfy the specificity requirements of the
competition at the subcontractor level, and by comparing
                                                             Recording Statute. In addition, the modifications were not
the proposed price to a government estimate that was
                                                             fully priced prior to execution, violating the FAR.
not prepared independently.


                                                                                   April 1, 2011 – September 30, 2011 7
                                       Management Challenges



American Recovery and Reinvestment Act of 2009 (continued)

Recovery Act funds are available for obligation provided    PBS approved these panels because they were offered
they meet Recording Statute requirements. To incur an       on an existing FAS Multiple Award Schedule contract as
obligation, an agency must have documentary evidence        part of a larger system. In our opinion, this was an
of a binding agreement between the agency and a             incorrect determination. The FAS schedule contract did
vendor for specific goods or work services to be            not indicate that the system was compliant with Recovery
provided. GSA issued these modifications to cover five      Act requirements.
broad categories of work without specifically defining
the scope of work.                                          Although items on schedule must comply with the Trade
                                                            Agreements Act (TAA) that does not necessarily mean
The FAR requires that all contract modifications,           that the items comply with the Recovery Act’s Buy
including change orders, be priced before they are          American requirements. The Recovery Act restricts the
executed unless delays would adversely affect the           use of manufactured goods used as construction
interests of the government. Similarly, the GSA             material. These Chinese-manufactured photovoltaic
Acquisition Manual states that the government can order     panels, even when offered on a schedule contract as
a contractor to proceed with work on a price to be          part of a larger system, cannot be purchased with
determined later (PDL) basis, if the necessity to proceed   Recovery Act funds.
does not allow time to reach an agreement on a
contractor’s proposal. These modifications did not          We advised that PBS and FAS take action to correct this
establish pricing prior to award even though they did not   situation and to preclude it from happening in the future.
qualify for a FAR or a PDL exception.
                                                            FAS disagreed with our position and responded that
We recommended that the PBS Commissioner develop            PBS had used the schedule correctly. In addition, FAS
and implement a methodology to review GSA contract          asserted that, while the panels were foreign in origin,
modifications to ensure that obligations are valid. In      they were part of an overall system, and only the Bureau
performing the review, GSA should document the review       of Customs can make a determination regarding TAA
methodology/process, track which actions were reviewed      compliance.
and by whom, record any improper obligations found,
de-obligate unspent funds, and report the findings to the   PBS responded that it has initiated corrective actions to
independent public accountant.                              address the issues we identified.

The PBS Commissioner concurred with the report              Special Project Memorandum: Analytical
recommendation.                                             Procedures for Evaluating Cost Proposals
                                                            Received Under a Utility Energy Services Contract
Memorandum: Purchase of Photovoltaic Panels                 at Saint Elizabeths
(Made in China) with American Recovery and                  Memorandum Number A090168-06, dated September 7,
Reinvestment Act of 2009 Funds for the Paul                 2011
Simon Federal Building in Carbondale, IL
Memorandum Number A090184-49, dated July 29, 2011           As part of our ongoing oversight of the consolidation of
                                                            the Department of Homeland Security’s headquarters at
Our review of the task order for the installation of        the Saint Elizabeths Campus, we reviewed a utility
photovoltaic panels at the Paul Simon Federal Building      energy services contract (UESC) task order awarded to
in Carbondale, IL disclosed the panels were assembled       the Washington Gas Light Company under GSA’s
in China. Projects funded by the Recovery Act prohibit      area-wide utility contract. This task order, valued at
the use of foreign-made products.                           $33,330,327, provides for design and construction of
                                                            the electrical distribution system.



8  Semiannual Report to the Congress
                                       Management Challenges



American Recovery and Reinvestment Act of 2009 (continued)

In awarding this task, GSA had neither a basis for           FAR Rule for Contractor Disclosure
determining price reasonableness, nor a justification for    Effective December 12, 2008, the Civilian Agency
using other than full and open competition. Additionally,    Acquisition Council and the Defense Acquisition
funds were inappropriately “borrowed” from this task         Regulations Council agreed on a final rule amending the
order to accomplish other work, thereby understating         FAR. The final rule implements the Close the Contractor
actual obligations - a violation of appropriations law.      Fraud Loophole Act, Public Law 110–252, Title VI, and
                                                             Chapter 1. Under the rule, a contractor must disclose, to
A UESC is a special purpose contract that permits a          the relevant agency’s OIG, credible evidence of a
government agency to contract directly with a utility        violation of federal criminal law (e.g. 18 U.S.C. and the
provider to obtain a broad range of energy services.         False Claims Act) including fraud, conflicts of interest,
These contracts can be structured to permit private          bribery, or the offering or acceptance of gratuities
financing. In this case Recovery Act funds were used.        connected to the award, performance, or closeout of a
                                                             government contract performed by the contractor or a
Contrary to the requirements of the FAR, GSA conducted       subcontractor. The rule provides for suspension or
only a limited cost analysis and no price analysis. As a     debarment when a principal knowingly fails to disclose,
result, they had no means of determining price               in writing, such violations in a timely manner.
reasonableness. The task was awarded at the proposed
price with all allowances, contingencies, overhead, and      Disclosures for this Reporting Period
markups accepted.
                                                             As disclosures are made, the OIG’s Office of Audits,
                                                             Office of Investigations, and Office of Counsel jointly
In addition, the task was modified to accomplish
                                                             examine each acknowledgment and make a
additional work. To pay for this, some task elements
                                                             determination as to what actions are warranted. During
were deferred to an unspecified future funding period.
                                                             this reporting period, the OIG received eight disclosures
However, the work to be set aside consisted of functions
                                                             and performed work on 27 existing disclosures. These
that must be completed in order to accomplish the
                                                             disclosures were connected to employee fraud and
purpose of the initial task. Effectively, the modification
                                                             inappropriate behavior as well as failures to comply with
was not a substitution for, but an increase in, the scope
                                                             contract requirements related to sales practice
of work. The net effect of this action was to under-record
                                                             disclosures, price reduction monitoring and employee
current period obligations, overstate the available fund
                                                             qualifications. During this reporting period, the OIG
balance, and create a potential $1.6 million violation of
                                                             concluded its evaluation of eight disclosures that
the Antideficiency Act.
                                                             resulted in $109,636 of savings and recoveries to the
                                                             government. The OIG also assisted on six disclosures
Other Initiatives                                            that were referred by another agency because of their
The FAR requires government contractors to disclose          potential impact on GSA’s operations.
credible evidence of violations of federal criminal law
under Title 18 of the United States Code and the False
Claims Act to agencies’ OIGs. To facilitate implementation
of this requirement we developed internal procedures to
process, evaluate, and act on these disclosures and
created a website for contractor self reporting.




                                                                                  April 1, 2011 – September 30, 2011 9
                                Promoting and Protecting Integrity



GSA is responsible for providing working space for one million federal employees. The Agency also manages the
transfer and disposal of excess and surplus real and personal property and operates a government-wide service and
supply system. To meet the needs of customer agencies, GSA contracts for billions of dollars worth of equipment,
supplies, materials, and services each year. We conduct reviews and investigations in all these areas to ensure the
integrity of the Agency’s financial statements, programs, and operations, and that the taxpayers’ interests are protected.
In addition to detecting problems in these GSA programs and operations, the OIG is responsible for initiative actions
and inspections to prevent fraud, waste, and abuse and to promote economy and efficiency. When systemic issues are
identified during investigations, they are shared with GSA management for appropriate corrective actions. During this
period, criminal, civil, and other monetary recoveries totaled over $130 million (see Tables 5 and 6).

Significant Initiatives, Civil Actions,                       equipment being imported for ultimate sale to GSA
                                                              suppliers and at least one U.S. Government agency
and Criminal Investigations                                   from a company based in Beijing, China. The subsequent
Government Infrastructure Protection Initiative (GIPI)        joint GSA OIG and ICE HSI investigation revealed that
The GSA OIG’s Office of Investigations created the            the vendor was a naturalized U.S. citizen from China,
Government Infrastructure Protection Initiative (GIPI) to     who was using several addresses in northern Virginia to
combat the proliferation of counterfeit software,             conduct business. A search warrant executed at the
information technology products and other business            vendor’s residence resulted in the seizure of additional
products in the federal supply chain, which could pose a      counterfeit equipment and various documents,
significant vulnerability to the government’s                 confirming that the company had supplied counterfeit
infrastructure. GSA OIG partnered with the Intellectual       Cisco products directly to the government and to a
Property Rights Center operated by Immigration and            number of GSA suppliers.
Customs Enforcement (ICE), Homeland Security
Investigations (HSI). This partnership facilitates the        In May 2011, Zhao and Cone were convicted after a
identification of unscrupulous suppliers to protect           three-week jury trial that resulted in three days of
government buyers.                                            deliberations. The jury also returned a verdict for
                                                              forfeiture of numerous assets associated with Zhao,
Cisco Counterfeiters Convicted and Sentenced                  including two Porsches, one Mercedes, seven bank
During this reporting period, GSA OIG and ICE HSI             accounts containing more than $1.6 million, and four
agents culminated a year-long investigation of Chun-Yu        homes and three condominiums with a total value of
Zhao, Donald Cone, and JDC Networking, Inc., on               more than $2.6 million.
September 9, 2011, after Zhao (owner of JDC
Networking) was sentenced to 60 months of                     Supplier of Counterfeit Goods Sentenced
imprisonment, three years of supervised release, and          Babak Shirazi was sentenced to two years of federal
ordered to pay $2,709,238 in restitution to the United        probation, with the first nine months to be served in
States. In addition to this sentence, the judge ordered       home detention under electronic monitoring, and to pay
Zhao to be stripped of her U.S. citizenship. On August        a $7,500 fine and a $100 special assessment. On
18, 2011, Cone was sentenced to 30 months of                  February 15, 2011, Shirazi pled guilty to federal trafficking
imprisonment and three years of supervised release,           in counterfeit goods violations as the result of a joint
and ordered to pay $148,300 in restitution and a $100         investigation conducted by the GSA OIG and ICE HSI
special court assessment fee. These sentences follow a        investigation that revealed that Shirazi purchased
29-count indictment of four subjects in the Eastern           counterfeit Cisco computer parts abroad, imported them
District of Virginia, which charged the group with            into the United States, and subsequently sold them to a
conspiracy, money laundering, wire fraud, immigration         GSA Multiple Award Schedule (MAS) vendor for sale.
fraud, and intellectual property rights violations.           As a result of Shirazi’s scheme, the vendor unwittingly
                                                              sold $27,000 of counterfeit parts to the Bureau of Land
This investigation was initiated after Customs and            Management through GSA’s MAS.
Border Protection officers discovered counterfeit Cisco

10  Semiannual Report to the Congress
                                  Promoting and Protecting Integrity



Significant Initiatives, Civil Actions, and Criminal Investigations (continued)

Civil Recoveries                                                 $110,000. This settlement resulted from a joint qui tam
The Office of Investigations consolidated investigative          investigation directed by the Department of Justice
efforts related to civil recoveries involving qui tam filings,   (DOJ) Civil Division and investigated by the GSA OIG,
Federal Acquisition Regulation (FAR) disclosures, and            the Defense Criminal Investigative Service (DCIS), and
Trade Agreement Act (TAA) violations in its Washington,          the Naval Criminal Investigative Service (NCIS).
D.C., field office. In recognition of the need to expand
civil recovery efforts throughout its field offices, the GSA     FedEx Agrees to Pay $8 Million to Resolve False
OIG formalized this initiative as a separate headquarters        Claims Allegations
unit to make use of the expertise the organization has           On April 29, 2011, Federal Express Corporation (FedEx)
gained through previous successful investigations. The           agreed to pay the United States $8 million to resolve
unit serves as a one-stop shop for expert information and        allegations that FedEx and its affiliates violated the
advice that is necessary to conduct civil investigations,        False Claims Act by routinely falsifying security delays
and which contributed to the successes outlined below.           and other “excusable” delays at GSA and other
                                                                 government installations in order to prevent government
Accenture Agrees to $63.7 Million Settlement to                  customers from seeking a monetary refund for late
Resolve Claims                                                   deliveries. This investigation was initiated based on a
On September 9, 2011, Accenture LLP agreed to pay                whistleblower lawsuit filed by a former FedEx employee
the United States $63.675 million, resolving allegations         who, in the wake of the 2001, terrorist attacks in New
that it received kickbacks for its recommendations of            York and Washington, D.C., observed the company’s
hardware and software to the government, fraudulently            couriers using “delivery exception codes” to reflect that
inflated prices, and rigged bids in connection with federal      increased security measures at government facilities
information technology contracts. The lawsuit, filed in          were causing delays in the timely delivery of overnight
the U.S. District Court for the Eastern District of              FedEx packages. The lawsuit alleged that, even after
Arkansas, alleged that Accenture submitted or caused             heightened security measures subsided or became
to be submitted false claims for payment under numerous          routine procedures for entering government locations,
contracts with federal agencies for information                  FedEx couriers continued to use the security-delay
technology (IT) services.                                        exception code in order to excuse their own failures to
                                                                 deliver priority overnight packages by the specified time
SAIC Agrees to Pay Government $22.6 Million to Settle            of 10:30 AM and to avoid the obligation to reimburse
False Claims Act Claims                                          government customers under the company’s money
                                                                 back guarantee. This settlement is the result of a GSA
On September 29, 2011, Science Applications
                                                                 OIG qui tam investigation that was conducted in
International Inc., (SAIC), its subcontractor, Applied
                                                                 collaboration with the DOJ OIG and the Department of
Enterprise Solutions (AES), AES CEO Dale Galloway,
                                                                 Agriculture OIG.
and former government employees Stephen Adamec
and Robert Knesel agreed to pay the United States
                                                                 Premier and Companies, Inc., and Palm Business
$22,676,000 to resolve allegations that the defendants
                                                                 Supply Agree to Settle False Claims Act Violations
submitted false claims under a contract with GSA in
support of the Naval Oceanographic Major Shared                  On April 14, 2011, Premier and Companies, Inc., agreed
Resource Center. The contract, awarded in April 2004,            to pay the United States $1,750,000, and on June 29,
was to provide support services for the National Center          2011, Palm Business Supply agreed to pay the United
for Critical Information Processing and Storage at               States $135,000 to reserve false claims. These
Stennis Space Center in Mississippi. GSA awarded the             recoveries culminate the efforts of DOJ and the U.S.
contract to SAIC, which teamed with Lockheed Martin              Attorney for the Southern District of California initiated
and AES to perform the task order. SAIC will pay                 after the completion of a GSA OIG qui tam investigation
$20,400,000, AES and Dale Galloway will pay                      that revealed both Premier and Companies and Palm
$2,166,000, and Adamec and Knesel will also pay                  Business Supply knowingly misrepresented that their


                                                                                     April 1, 2011 – September 30, 2011 11
                               Promoting and Protecting Integrity



Significant Initiatives, Civil Actions, and Criminal Investigations (continued)

products sold under government contracts were              initiated by the GSA OIG and worked jointly with the FBI,
manufactured in the United States, when in fact many of    which disclosed that Kantartzis programmed
the products were manufactured in the People’s Republic    approximately 160 payphones owned by his company to
of China, Thailand, and Taiwan in violation of the TAA.    automatically dial toll-free numbers and exploit the FCC
                                                           regulation allowing payphone service providers to
Criminal Investigations                                    collect $0.49 for such calls made from their payphone.
Joint Investigation Leads to Guilty Plea and Return of     These fraudulent fees were paid by subscribers of the
$2.3 million                                               toll free numbers. Victims of this "dial around
                                                           compensation" fraud scheme included GSA, a number
On September 8, 2011, Breck Taylor, former president of
                                                           of other federal agencies, and private businesses.
Red River Computer Company, Inc., pled guilty to
federal wire fraud, attempted wire fraud, and conversion
                                                           GSA Building Manager Sentenced in Bribery Scheme
of government funds violations. Taylor was sentenced to
36 months of incarceration and ordered to forfeit          On August 2, 2011, Gary Thompson, a GSA Building
$431,949 in proceeds from his fraud scheme. This           Manager, was sentenced to nine months’ incarceration,
sentence follows a joint investigation conducted by the    three years of supervised release, 100 hours of
GSA OIG, DCIS, and the FBI that disclosed Taylor, while    community service, and a court-ordered forfeiture in the
president, defrauded the government through dozens of      amount of $55,000. This sentence follows a proactive
contracts. In August 2011, Red River agreed to pay the     GSA OIG investigation that identified several government
government $2.3 million to resolve claims that the         employees and contractors involved in a bribery/
company had also violated the False Claims Act.            kickback scheme. The investigation revealed that
                                                           Thompson accepted over $7,000 in cash bribe payments,
Investigation of Payphone Scam Uncovers $1.2 Million       over a period of several years, in return for maintenance
in Fraud                                                   contracts at GSA facilities.
On April 13, 2011, two former employees of a payphone
                                                           California Businessman Pleads Guilty to Bribery
service provider were charged with federal conspiracy,
                                                           Conspiracy and False Tax Return
wire fraud, money laundering, and criminal asset
forfeiture violations. These charges resulted from a GSA   On May 16, 2011, Jesse Denome, President of JD
OIG investigation worked jointly with the Internal         Machine Tech, Inc., pled guilty to a bill of information
Revenue Service Criminal Investigation that revealed       charging him with federal conspiracy, bribery, and tax
the pair schemed to defraud the federal government,        violations. This plea is the result of a GSA OIG
state agencies, and private businesses of $1,200,000 by    investigation conducted jointly with NCIS, DCIS, and the
programming phones owned by their company to exploit       FBI which disclosed that Denome provided San Diego
the Federal Communications Commission (FCC)                area government contracting officials with cash,
regulation allowing payphone service providers to          mortgage payments, vehicle payments, credit card
collect $0.49 for each such call completed from their      payments, and other items in exchange for contract
payphones. The fraudulent fees were paid by subscribers    awards. Charges against his conspirators are currently
of the toll-free numbers, which included GSA.              pending in the Southern District of California.

Agents Uncover Scam to Use Payphones to Bilk               Navy Petty Officer Convicted of Accepting Kickbacks
Government and Private Companies of Millions               On August 23, 2011, Logistics Specialist Petty Officer
On September 20, 2011, Nicolaos Kantartzis, president      Brandon C. Washington, assigned to Naval Air Station
of Federal Telephone Company, Inc., pled guilty to         Key West in Florida, was convicted of fraud in violation
federal wire fraud violations and subsequently forfeited   of the Uniform Code of Military Justice after a general
$2.8 million in proceeds from his fraud scheme. The        court martial. Washington was subsequently sentenced
plea and forfeiture were a result of an investigation,     to three months of confinement, forfeiture of $2,900 in
                                                           salary, a fine of $2,400, a reduction in grade from E-5 to

12  Semiannual Report to the Congress
                               Promoting and Protecting Integrity



Significant Initiatives, Civil Actions, and Criminal Investigations (continued)

E-1, and a bad conduct discharge from the Navy. The         2011, Broomfield was sentenced to 30 months of
actions taken resulted from a joint investigation by the    incarceration; three years of supervised release, and
GSA OIG, NCIS, DCIS, and the FBI that revealed              ordered to pay restitution of $317,308. The conviction
Washington accepted kickbacks of cash and gift cards        and sentencing follow a joint GSA OIG investigation
from a vendor engaged in business with the Navy in          involving the Army, Criminal Investigative Command,
exchange for making purchases from the vendor with a        Major Procurement Fraud Unit, after it was determined
GSA Smartpay purchase card.                                 that Broomfield ordered various items through the GSA
                                                            Advantage program and had those items shipped to his
Former GSA Employee Convicted and Denaturalized             residence. Special agents recovered property valued at
After Fraudulently Obtaining Citizenship                    $92,000 that had been obtained through the scheme
On September 9, 2011, Wei Zhang, a former GSA               from his residence and a storage unit.
Information Technology Specialist, was sentenced to 90
days of home confined electronic monitoring, two years      Contract Employees for GSA Sentenced in Computer
of probation, a $200 special assessment fee, and a fine     Theft Scheme
of $5,000. Zhang pled guilty to federal violations that     On September 16, 2011, Dante Buggs and Ronald
she used her fraudulently-obtained citizenship to secure    Boddie, two GSA IT contract employees, were sentenced
employment with GSA. The GSA OIG joined this ICE            to two months of incarceration, two years of supervised
investigation after they reported that Zhang, a Chinese     release, and ordered to pay a $100 special court
born national, was suspected of fraudulently obtaining      assessment fee. In addition, a forfeiture agreement was
her U.S. Naturalization Certificate from a Citizenship      signed by both individuals to jointly pay $1,600. In June
and Immigration Service official who had been convicted     2011, the pair pled guilty to conspiracy and theft after a
of accepting bribes in exchange for citizenship. She will   joint GSA OIG and Federal Protective Service
be removed from the country upon completion of her          investigation identified Buggs and Boddie as being
sentence.                                                   responsible for the theft of approximately 40 GSA laptop
                                                            computers from a GSA facility in Virginia, which were
Company President Sentenced After Failing to Supply         then sold to an unwitting purchaser.
Orders to Government
On August 9, 2011, Gregory Jackson was sentenced to         Contract Employee Pleads Guilty to Computer Theft
18 months of incarceration, followed by 36 months of        On June 23, 2011, Andre Arrington, a former GSA IT
supervised release and ordered to pay $321,997 in           contract employee, pled guilty to second degree theft in
restitution to GSA. This sentence follows Jackson’s         the Superior Court of the District of Columbia. Arrington
June 1, 2011, guilty plea to a single federal theft of      was subsequently sentenced to one year of supervised
government funds violation. A GSA OIG investigation         release and 120 hours of community service, and
was initiated after the GSA Federal Acquisition Service     ordered to pay $400 in restitution to the Metropolitan
(FAS) reported that Karson Distribution Company (KDC)       Police Department (MPD) and a $50 special assessment
failed to deliver products that GSA had purchased. A        fee. GSA OIG and MPD had arrested Arrington in May
review of those orders disclosed that the vast majority     after an MPD undercover storefront operation identified
were 40-60 days delinquent and that FAS repeatedly          him as being involved in the sale of four laptop computers
attempted to contact Jackson to secure delivery. FAS        that were owned by GSA.
cancelled the outstanding orders and demanded that all
GSA funds be returned. Jackson subsequently dissolved       GSA OIG Agents Uncover Scheme to Use Donated
KDC and did not return the funds he received.               Aircraft Improperly
                                                            On June 7, 2011, Darryl Reynolds, President of the
Army Sergeant Pleads Guilty to Theft Scheme                 Texas Firebirds Volunteer Fire Department (TFVFD),
On May 12, 2011, former Army Sergeant Broomfield            was sentenced after pleading guilty to making a false
pled guilty to theft. Following his plea, on August 31,     statement to the Federal Aviation Administration in

                                                                                April 1, 2011 – September 30, 2011 13
                               Promoting and Protecting Integrity



Significant Initiatives, Civil Actions, and Criminal Investigations (continued)

connection with an aircraft he obtained for the TFVFD        Former Region 9 Deputy Regional Commissioner
through the Federal Surplus Property Program.                Debarred
Reynolds was sentenced to five months of incarceration,      On April 13, 2011, GSA’s Suspension and Debarment
five months of home confinement, three years of              Official debarred Daniel B. Voll from participating in
supervised release, and a $10,000 fine. Reynolds also        federal procurement and non-procurement activities
forfeited his interest in the helicopters and fixed-wing     until June 7, 2013. Voll had previously retired as the
aircraft he received through the program. This sentence      Deputy Regional Commissioner for Region 9 Public
follows a joint investigation conducted by the GSA OIG,      Buildings Service and had been convicted of theft after
DCIS, the Department of Transportation OIG, and the          a GSA OIG investigation revealed that between 2005
Texas Department of Public Safety, which revealed            and 2009, he misappropriated GSA funds totaling
Reynolds received eight helicopters and one fixed-wing       approximately $61,000.
aircraft that the government donated through the Federal
Surplus Property Program for the specific purpose of         Auto Auctioneer Sentenced After “Title Laundering”
conducting law enforcement, aerial search and rescue,        Scheme Investigated
and firefighting operations. The investigation revealed
                                                             On July 28, 2011, Danilo Santos pled guilty to grand theft
that the aircraft had never been used for such operations.
                                                             and forgery in violation of Florida law. Santos was
                                                             sentenced to five years of probation, ordered to
Company President Pleads Guilty to False Statements
                                                             surrender all passports, and ordered to pay full restitution
On June 29, 2011, Sean Roach, the president of Zebra         and $603 in special assessments. Santos immediately
Engineering Controls, pled guilty to a bill of information   remitted $300,000 to the victim in court. This sentence
that charged him with making false statements after a        is the result of a joint GSA OIG and Miami Police
joint investigation conducted by the GSA OIG and DCIS        Department investigation into allegations that Santos
revealed that Roach falsely certified that he had paid all   had been offering to sell luxury GSA Fleet vehicles
of his subcontractors in order to receive progress           below market price. The complainant paid Santos for
payments on a federal contract. By means of these false      this supposed merchandise, and was defrauded of
certifications, he obtained approximately $68,000 to         approximately $370,000. Subsequently, two additional
which he was not entitled.                                   victims were identified who paid Santos $300,000 for a
                                                             yacht he claimed he had obtained through a GSA
Interior Designer Sentenced After Defrauding ICE             Auction. Santos admitted to the fraud scheme, which he
On July 13, 2011, Darlene Mathis-Gardner, president of       orchestrated by altering federal documents to sell yachts
Systems Design, Inc., was sentenced to 18 months of          that he did not own. Santos was subsequently charged
incarceration, three years of supervised release and         in Florida state court with Grand Theft, Organized
360 hours of community service, and ordered to pay           Scheme to Defraud, Forgery, Uttering a Forged
$389,738 in restitution. In April 2011, Mathis-Gardner       Instrument, and Unlawful Use of Indicia of Authority.
had pled guilty to conspiracy and false claims after a
joint GSA OIG and ICE Office of Professional                 Four Guilty in Scheme to Obtain Clean Vehicle Titles
Responsibility investigation revealed Mathis-Gardner         On May 20, 2011, June 1, 2011, and July 26, 2011,
and others misrepresented themselves as independent          respectively, Jayeshkum Patel, Daniel Bass, and Babauk
contractors, submitted false information as to their         Harizavi pled guilty to mail fraud, in violation of federal
qualifications, and created fictitious documentation of      law. On September 21, 2011, a federal jury found Jerry
the company's past performance in order to convince          Weaver guilty of two counts of mail fraud. These
government officials that they were qualified to perform     convictions were obtained as the result of a joint
the GSA contract design work at the ICE Headquarters         investigation by the GSA OIG, the FBI, the U. S. Postal
building. Based on these misrepresentations and false        Inspection Service, the Texas Department of
documents, the government awarded the company a              Transportation, and the National Insurance Crime
contract worth approximately $1.3 million.                   Bureau. Agents learned that Harizavi, Bass, Patel, and

14  Semiannual Report to the Congress
                               Promoting and Protecting Integrity



Significant Initiatives, Civil Actions, and Criminal Investigations (continued)

Weaver conspired to request and file fraudulent             $298,780 and a $100 special court assessment fee,
paperwork with the Texas Department of Motor Vehicles,      after pleading guilty to conspiracy and wire fraud. These
using the mechanic’s lien process to obtain clean Texas     sentences were the result of proactive GSA OIG
vehicle titles for damaged vehicles, including GSA Fleet    investigative efforts to identify suspicious purchases
vehicles that had been sold as salvage.                     made at gas stations in the Hampton, VA, area where
                                                            they observed Lanaire White using multiple fleet credit
$670,000 in Federal Surplus Property Recovered              cards to fuel non-government vehicles. The credit cards
In July 2011, John D. Horner, Chief of Mountain Fire        were traced back to Colleen White, who had access to
Rescue (MFR) in Mountain Ranch, CA, returned surplus        the cards through her employment in the Fort Monroe
federal property valued at more than $670,000 to the        Motor Pool office. The total loss attributed to this fraud
Defense Reutilization and Marketing Office after a GSA      scheme was $298,780.
OIG investigation revealed that Horner and MFR
inappropriately obtained most of its property through the   GSA OIG Investigation Leads to Indictment of Three in
Federal Surplus Personal Property Donation Program          Fleet Card Scam
administered by the Department of General Services          During the time period of July 18-22, 2011, GSA OIG
(DGS) for the State of California. The property returned    Special Agents arrested three subjects for felony theft
included three armored personnel carriers, three gamma      stemming from their fraudulent use of a fleet credit card.
goat vehicles, and 41 pieces of body armor. DGS             The previous investigation leading to these arrests
subsequently revoked Horner’s and MFR’s eligibility to      identified numerous unauthorized charges that had
participate in the surplus program.                         been made through a number of fleet cards associated
                                                            with GSA lease vehicles assigned to Amtrak. Agents
Joint Investigation Reveals Vehicle Repair Scam             identified over $35,000 in fraudulent charges. This case
On September 15, 2011, Gregory Weis, owner of               is being prosecuted by the Cook County State Attorney’s
Columbia Auto Service, was sentenced to pay restitution     Office in Cook County, IL.
in the amount of $3,307 and pay a $430 fine or serve 15
days in jail. This sentence follows his guilty plea to      National Park Service Employee Serves Six Months
Michigan state misdemeanor counts of false pretenses.       Home Confinement for Credit Card Fraud
Weis had been initially charged with two felony and one     On May 17, 2011, a National Park Service (NPS)
misdemeanor false pretense violations as the result of a    maintenance worker was sentenced to six months of
GSA OIG, Michigan Secretary of State, and Battle Creek      home confinement with electronic monitoring and three
Police Department investigation that revealed Weis’         years’ probation, and ordered to pay $10,383 in
business performed unnecessary repairs to three             restitution for federal violations stemming from his
government-owned vehicles in July 2010.                     unauthorized use of fleet credit cards assigned to GSA
                                                            vehicles that had been leased to the National Park
Couple Sentenced After Using Fleet Cards to Steal           Service. Previously, the maintenance worker pled guilty
$298,780 in Fuel                                            to a bill of information that was filed after GSA OIG
On September 27, 2011, Lanaire White was sentenced          Special Agents initiated an investigation after GSA Fleet
to 84 months of incarceration, three years of supervised    Management reported suspicious fleet credit card
release, and ordered to pay $298,780 in restitution and     transactions. Subsequent investigation revealed the
a $1,600 special court assessment fee. On June 6,           credit cards were being used by an NPS employee to
2011, White was convicted after a jury trial conspiracy;    unlawfully purchase fuel for several privately owned
wire fraud; theft; theft of government property;            vehicles and had made over $10,000 of unauthorized
unauthorized access device fraud; and firearms              purchases since 2000.
violations. His ex-wife, Colleen White, was sentenced to
41 months incarceration and three years of supervised
release, and ordered to pay restitution in the amount of

                                                                                April 1, 2011 – September 30, 2011 15
                               Promoting and Protecting Integrity



Significant Initiatives, Civil Actions, and Criminal Investigations (continued)

Former Veterans Affairs Employee and Conspirator             GSA OIG Establishes Intelligence Program
Sentenced for Credit Card Fraud                              to Enhance Investigative Capabilities
On August 1, 2011, a federal district judge found Neal       In January of 2011, the Office of Investigations developed
Fowler guilty of conspiracy and theft. Fowler was            a Criminal Intelligence program. The mission of the
sentenced to five years probation and ordered to pay         program is to provide direct investigative support to
$27,767 in restitution and a $200 special assessment         special agents in regional field offices. The unit acts as
fee. Fowler’s conspirator, Tatina Kyles, was also found      a force multiplier by consolidating investigative
guilty of conspiracy and theft and sentenced to five         databases, analytical expertise and GSA information
years of probation and ordered to pay a $200 special         systems access management into one functional unit.
assessment fee and an additional $27,767 in restitution.     Through a Memorandum of Understanding with the
The sentencing documents designated Fowler and               Financial Crimes Enforcement Network (FinCEN), the
Kyles as being jointly responsible for paying the            unit also provides access to Bank Secrecy Act data. The
restitution. These convictions and sentences resulted        program enhances the effectiveness of special agents
from a joint GSA OIG and Veterans Affairs (VA) OIG           by providing timely, relevant, and incisive intelligence
investigation that revealed Fowler (who was employed         products which allow special agents to focus greater
by the VA at the time of the fraud), inappropriately used    resources on field operations. The program receives an
his position to obtain access to a government fleet credit   increasing number of requests for support and has
card and provide it to Kyles to use to purchase over         demonstrated sustained results with responsive
$27,000 in fuel for private vehicles. The VA terminated      information of investigative value. The Criminal
Fowler as a result of the investigation.                     Intelligence program will continue to improve services
                                                             for the Office of Investigations by expanding the array of
Three Charged in Fleet Card Fraud Scheme                     available investigative tools.
On May 12, 2011, three people were indicted and
charged with conspiracy and access device fraud,             Works Progress Administration (WPA)
following a joint investigation conducted by the GSA         Art Recovery Project
OIG and the Fort Polk Military Police, which identified      GSA is the custodian of the many works of art produced
fraudulent fleet card charges made on vehicles that had      through the Works Progress Administration (WPA).
been taken out of service for repairs or body work. Video    Since the United States commissioned countless pieces
surveillance identified three subjects making fuel           of art during the New Deal era, many precious historical
purchases with the fleet credit cards. The individuals       pieces have unlawfully made their way into the
confessed and surrendered the fleet cards. The               marketplace and collectors’ hands. The OIG has
approximate loss to the government was $30,000.              continued to work closely with the Public Buildings
                                                             Service, Fine Arts Program Office, to identify and
Subject Charged After GSA OIG Identifies $18,000 in          recover lost and stolen American Cultural Property
Fraud                                                        produced at government expense during the New Deal
On July 20, 2011, one person was indicted for theft of       era. We also continued our campaign to more widely
public money and property, trafficking in unauthorized       publicize recovery efforts. On May 31, 2011, the Public
access devices, and unauthorized sale with an access         Broadcasting Service program, The Antiques Road
device. The investigation leading to this indictment was     Show, aired a segment concerning our art recovery
initiated after the GSA Fleet Loss Prevention Team           efforts, and we immediately observed an increase in the
alerted the GSA OIG of suspicious transactions being         numbers of reports relating to WPA artwork improperly
made with a GSA fleet credit card. GSA OIG Special           remaining in public hands.
Agents subsequently identified the person responsible
for the transactions and recovered the stolen credit card.   Our accomplishments during this reporting period
The approximate loss to the government was $18,000.          include six recoveries of lost artwork which include
                                                             The Welder by Lee Fredriksen; Iris Garden, by Anne

16  Semiannual Report to the Congress
                                Promoting and Protecting Integrity



Significant Initiatives, Civil Actions, and Criminal Investigations (continued)

Fletcher; Scrub Woman, by Gustave Hildebrand;                 contractor or subcontractor. The OIG has made it a
Granny, by Leo McMillan; and Tear Station, 40 Below,          priority to process and forward referrals to GSA, so GSA
and Tears Station, 40 Below by Arthur Kerrick. In             can ensure that the government does not award
addition, at least 20 other potential WPA pieces of art       contracts to individuals or companies that lack business
were identified, and the GSA OIG is working with the          integrity or honesty.
GSA FAP to either facilitate their return to GSA or update
lending agreements with the current possessors such           During this reporting period, the OIG made 180 referrals
as public institutions, art galleries, and museums.           for consideration of suspension/debarment to the GSA
                                                              Office of Acquisition Policy. GSA issued 91 suspension
The recovery of one of the paintings, Iris Garden,            and debarment actions based on current and previous
occurred after the possessor watched the May 31, 2011,        OIG referrals.
episode of The Antiques Road Show which presented a
story on the GSA OIG’s efforts to reclaim WPA artwork         Integrity Awareness
that is no longer in the government’s custody. The
                                                              The OIG presents Integrity Awareness Briefings
possessor immediately contacted the GSA OIG and
                                                              nationwide to educate GSA employees on their
advised he wished to return the painting that had been
                                                              responsibilities for the prevention of fraud and abuse
in his possession since he was a child. He related that
                                                              and to reinforce employees’ roles in helping to ensure
he obtained the painting in 1970 after the Berryville, VA
                                                              the integrity of Agency operations. This period, we
High School building was set to be demolished and the
                                                              presented 44 briefings attended by 335 regional and
Clarke County School Board invited representatives
                                                              Central Office employees. These briefings explain the
from each school in the county to take whatever it
                                                              statutory mission of the OIG and the methods available
wanted from the building. The principal of Boyce
                                                              for reporting suspected instances of wrongdoing. In
Elementary School asked the possessor and a friend,
                                                              addition, through case studies, the briefings make GSA
who were both 12 years old at the time, to accompany
                                                              employees aware of actual instances of fraud in GSA
him to the school to help load items the principal thought
                                                              and other federal agencies and thus help to prevent their
would benefit their school. As a reward for their efforts,
                                                              recurrence. GSA employees are the first line of defense
the principal told the boys they could keep whatever they
                                                              against fraud, abuse, and mismanagement. They are a
could carry out of the building on one trip. The possessor
                                                              valuable source of successful investigative information.
carried out a framed print of Gilbert Stuart’s unfinished
painting of George Washington and an unsigned painting
entitled Iris Garden. The painting remained in his            Hotline
possession ever since.                                        The OIG Hotline provides an avenue for employees and
                                                              other concerned citizens to report suspected
Suspension and Debarment Initiative                           wrongdoing. Hotline posters located in GSA-controlled
                                                              buildings encourage employees to use the Hotline. We
GSA has a responsibility to ascertain whether the people
                                                              also use our FraudNet Hotline platform to allow Internet
or companies it does business with are eligible to
                                                              reporting of suspected wrongdoing. During this reporting
participate in federally-assisted programs and
                                                              period, we received 1,125 Hotline contacts. Of these
procurements, and that they are not considered
                                                              contacts, 209 Hotline cases were initiated. In 71 of these
“excluded parties.” Excluded parties are individuals and
                                                              cases, referrals were made to GSA program officials for
companies debarred, suspended, proposed for
                                                              review and action as appropriate, 39 were referred to
debarment, or declared ineligible to receive contracts by
                                                              other federal agencies for follow up, 98 were referred for
a federal agency. The Federal Acquisition Regulation
                                                              OIG criminal/civil investigations or audits, and 5 did not
authorizes an agency to suspend or debar individuals or
                                                              warrant further review.
companies for the commission of any offense indicating
a lack of business integrity or business honesty that
directly affects the present responsibility of a government


                                                                                  April 1, 2011 – September 30, 2011 17
                         Forensic Auditing, Evaluation, and Analysis



Forensic Auditing                                                Evaluation and Analysis conducted two operational
                                                                 assessments of OIG field offices and completed the
•• The Forensic Auditing function employs innovative
                                                                 Federal Managers Financial Integrity Act (FMFIA)
   auditing and investigative strategies to assess
                                                                 Internal Control Review and FMFIA Annual Assurance
   situations in which fraud is suspected, detect
                                                                 statement.
   fraudulent activities, and provide evidence that meets
   the standard of proof required by criminal courts.          Statistical Support
   During this period, Forensic Auditing continued to
                                                               •• The Statistical Support function continued to provide
   provide extensive data mining and analysis in support
                                                                  assistance in statistical sampling and data analysis to
   of joint activities with the Office of Investigations,
                                                                  the OIG auditors and investigators. Efforts focused on
   continued three proactive fraud detection projects
                                                                  assembling operational and performance data from
   initiated in prior reporting periods, and commenced
                                                                  across OIG offices to produce integrated assessments
   two new proactive reviews. Proactive initiatives this
                                                                  in support of Evaluation and Analysis field office
   period resulted in one referral to the Office of
                                                                  reviews. Additionally, a historical evaluation of GSA
   Investigations for further investigation, with additional
                                                                  Fleet operational costs was initiated, as well as, a
   referrals anticipated.
                                                                  comprehensive analysis of OIG audit and investigative
Evaluations & Analysis                                            monetary results and False Claims Act settlements.
                                                                  Staff also continued to provide assistance in
•• The Evaluation and Analysis function conducts
                                                                  responding to informational and congressional
   operational assessments of OIG field offices and
                                                                  requests.
   operating components. During this reporting period,




18  Semiannual Report to the Congress
                              Government-Wide Policy Activities



We regularly provide advice and assistance on government-wide policy matters to the Agency, as well as to other
federal agencies and to committees of Congress. In addition, as required by the Inspector General Act of 1978, we
review existing and proposed legislation and regulations to determine their effect on the economy and efficiency of
the Agency’s programs and operations and on the prevention and detection of fraud and mismanagement. Because
of the central management role of the Agency in shaping government-wide policies and programs, most of the
legislation and regulations reviewed invariably affect government-wide issues in areas such as procurement, property
management, travel, and government management and information technology systems. To ensure the auditor's
independence when performing subsequent audit work, we participate in Agency task forces, committees, and working
groups in an observer or advisor capacity.

Interagency Committees                                        Thorson, has been reaching out through discussions
                                                              and meetings with various audiences throughout the
and Working Groups                                            country. During this reporting period, IG Miller made
We participated in a number of interagency committees         presentations to GSA contractors and employees at the
and working groups that address government-wide               GSA Expo and the Association of Inspectors General.
issues that cut across agency lines:                          IG Miller also met with officials in Massachusetts
                                                              Attorney General Martha Coakley’s office, the National
•• Council of the Inspectors General on Integrity and         Association of Attorneys General, and Colorado
   Efficiency (CIGIE). The Inspector General is a             Attorney General John Suthers to discuss developing
   member of the Investigations Committee, Professional       partnerships in fighting fraud. These partnerships will
   Development Committee, and Homeland Security               facilitate information sharing about disreputable
   Roundtable.                                                individuals and companies. GSA OIG has already been
  •	 Federal Audit Executive Council Contracting              sharing information with federal, state, and local
     Committee. The Assistant Inspector General for           partners through a quarterly report containing criminal
     Audits and the Deputy Assistant Inspector General,       convictions and civil settlements as well as an interactive
     Acquisition Programs Audit Office, participate in        map linking state and local websites that contain
     the Federal Audit Executive Council Contracting          information on disreputable individuals and companies.
     Committee, created in December 2007. This             •• Government Infrastructure Protection Initiative
     Committee provides a forum to share information          (GIPI). The GSA OIG’s Office of Investigations
     about, and coordinate audits of, significant             initiated the Government Infrastructure Protection
     contracting and procurement issues of interest to        Initiative (GIPI) to combat the proliferation of
     the OIG community and the federal government as          counterfeit software, information technology products
     a whole. The Committee also develops and                 and other business products in the federal supply
     recommends best practices to be used by OIGs in          chain, which could pose a significant vulnerability to
     addressing contracting issues.                           the government’s infrastructure. GSA OIG partnered
•• Financial Fraud Enforcement Task Force’s                   with the Intellectual Property Rights Center operated
   Recovery Act, Procurement, and Grant Fraud                 by ICE, Homeland Security Investigations.
   Working Group: Public and Private Sector                   During this reporting period, IG Brian Miller began
   Outreach Committee. The U.S. Attorney General’s            efforts to increase public awareness, open lines of
   Financial Fraud Enforcement Task Force collaborates        communication, and better coordinate with private
   with federal agencies and state and local partners to      industry on this growing problem. On July 21, 2011,
   prevent, detect, and prosecute financial fraud. In         IG Miller spoke at an Alliance for Grey Market and
   recognition of the important perspectives on fighting      Counterfeit Abatement meeting in Newport, RI. He
   fraud brought by state and local governments as            also met with Cisco senior legal and management
   well as the private companies, the Public and Private      officials in San Francisco in August 2011. Addition-
   Sector Outreach Committee of the Task Force,               ally, senior management officials from the Office of
   co-chaired by Inspector General Miller and U.S.
   Department of the Treasury Inspector General Eric

                                                                                 April 1, 2011 – September 30, 2011 19
                               Government-Wide Policy Activities



Interagency Committees and Working Groups (continued)

  Investigations participated in cross-sector roundtable       modeling tools and techniques to detect emerging
  discussions on how to better protect the government          risks and patterns.
  supply chain from the dangers associated with
  counterfeiting.                                            Legislation, Regulations,
•• Regional Procurement Fraud Working Group. The             and Subpoenas
   Special Agent in Charge and the Regional Inspector        During this reporting period, the OIG reviewed numerous
   General for Audits in our Heartland Region Office         legislative matters and proposed regulations. We also
   participate in the quarterly meetings of the Western      responded to requests from Congressional members on
   District of Missouri and Kansas Regional Procurement      behalf of their constituents. Additionally, we issued 35
   Fraud Working Group (Working Group). The goal of          subpoenas in support of our audit, inspection, evaluative,
   the Working Group is to detect, prevent, and prosecute    and investigative work. The OIG also made substantive
   procurement fraud. The meetings are chaired by the        comments on several proposed laws and regulations.
   Chief of the Fraud and Corruption Unit of the U.S.
   Attorney’s Office for the Western District of Missouri,   Testimony
   and attended by attorneys, agents, and auditors from      On April 14, 2011, the Inspector General testified before
   various federal government agencies. Members of           the Subcommittee on Economic Development, Public
   this group include representatives from the               Buildings and Emergency Management of the House
   Department of Justice, the Regional Field Office of       Transportation and Infrastructure Committee at a hearing
   the FBI, and the Region’s Offices of Inspectors           entitled, “Richard H Poff Federal Building Renovation: Is
   General. In addition to increasing the contact, and       it Costing the Taxpayer Too Much?” The hearing focused
   improving the communication, between agencies and         on GSA’s use of Recovery Act funds for the renovation
   the U.S. Attorney’s Offices, these meetings have          and modernization of the Richard H. Poff Federal Building
   resulted in innovative methods to identify and            in Roanoke, Virginia. The Inspector General’s testimony
   prosecute fraud and have brought about the                focused on two issues: GSA’s award of a contract for
   development of collaborative cases among different        construction services for the Richard H. Poff Federal
   government agencies.                                      Building without adequate price competition, in violation
•• TeamMate Technical Support Group. Our                     of the Competition in Contracting Act, and GSA’s decision
   TeamMate Technical Support Group participates in          to proceed with building renovations before it had
   the TeamMate Federal Users Group and the CCH              completed a cost benefit analysis.
   TeamMate Users Group to discuss concerns and new
   challenges facing TeamMate users. TeamMate is an          Intra-agency Task Forces, Committees,
   automated audit workpaper management system that
   strengthens the audit process and increases the
                                                             and Working Groups
   efficiency of our auditors.                               The OIG provides advice and counsel to GSA while
                                                             monitoring ongoing Agency initiatives. Our rep-
•• Interagency Fraud and Risk Data Mining Group              resentatives advise management of potential problems
   (IFRDMG). The Office of Forensic Auditing,                at the earliest possible opportunity. Our purpose is to
   Evaluation, and Analysis, is a participating member of    help ensure that appropriate management controls are
   the IFRDMG, and hold an executive committee board         in place when installing new, or modifying existing,
   member position in guiding the future of this group.      Agency systems, and to offer possible solutions when
   The IFRDMG collaborates the efforts of investigators      addressing complex financial and operational issues.
   and auditors across the federal Inspector General
   community for the purpose of sharing best practices
   and evaluating the latest data mining and risk




20  Semiannual Report to the Congress
                                Government-Wide Policy Activities



Intra-agency Task Forces, Committees, and Working Groups (continued)

Our participation with the Agency on task forces,             channel for both broad policy issues and specific
committees, and working groups—typically as nonvoting         matters having to do with particular contracts. The
advisory members—allows us to contribute our                  Working Group has focused on OIG preaward audits,
expertise and advice, while improving our familiarity with    as well as MAS negotiation issues. It has also
the Agency’s rapidly changing systems. However, the           developed guidance for MAS contracting officers
nature of our involvement does not preclude our ability       (COs) regarding how best to use our preaward audits.
to independently audit Agency programs.                       Further, it has reinvigorated the process by which
                                                              FAS and the OIG collaboratively select and commence
During this period we were involved with:                     preaward attestation engagements of contractors,
                                                              and has built into this process a specific mechanism
•• The Multiple Award Schedule Working Group.                 which allows COs to request audits of individual
   This group was established as a result of an OIG           contractors. It also focuses on issuing guidance to
   report released in August 2001 on MAS pricing              COs regarding negotiation objectives and how to
   practices. Its membership is primarily comprised of        handle discrete MAS negotiation issues. The Working
   representatives from the FAS and the OIG, along with       Group also provided input to FAS in support of its
   representatives from the Office of the Chief Acquisition   efforts to upgrade and enhance pricing performance
   Officer and ad hoc members from other GSA                  measures on MAS contracts.
   components. It serves as an effective communications




                                                                               April 1, 2011 – September 30, 2011 21
                          Statistical Summary of OIG Accomplishments



Reports Issued                                                         well as the status of those reports as of September 30,
                                                                       2011. Table 1 does not include four implementation
The OIG issued 81 reports. The 81 reports contained
                                                                       reviews that were issued during this period because they
financial recommendations totaling $285,694,165 including
                                                                       are excluded from the management decision process.
$220,167,642 in recommendations that funds be put to
                                                                       Table 1 also does not include two reports excluded from
better use and $65,526,523 in questioned costs. Due to
                                                                       the management decision process because they pertain
GSA’s mission of negotiating contracts for government-
                                                                       to ongoing investigations.
wide supplies and services, most of the savings from
recommendations that funds be put to better use would be
applicable to other federal agencies.

Management Decisions on Reports
Table 1 summarizes the status of the universe of reports
requiring management decisions during this period, as


Table 1. Management Decisions on OIG Reports
                                                                                    Reports with                     Total
                                                                                     Financial                     Financial
                                                    Number of Reports            Recommendations*              Recommendations
 For which no management decision had been made as of 04/01/2011
 Less than six months old                                       20                            8                     $30,495,361
 Six or more months old                                          1                            1                         $494,639
 Reports issued this period                                     77                           52                   $285,694,165
                                       TOTAL                    98                           61                   $316,684,165
 For which a management decision was made during the reporting period
 Issued prior periods                                           21                            9                     $30,990,000
 Issued current period                                          49                           36                   $235,677,102
                                       TOTAL                    70                           45                   $266,667,102
 For which no management decision had been made as of 09/30/2011
 Less than six months old                                       28                           16                     $50,017,063
 Six or more months old                                          0                            0                              $0
                                       TOTAL                    28                           16                     $50,017,063

*These totals include audit reports issued with both recommendations that funds be put to better use and questioned costs.




22  Semiannual Report to the Congress
                        Statistical Summary of OIG Accomplishments



Management Decisions on Reports with Financial Recommendations
Tables 2 and 3 present the reports identified in Table 1 as containing financial recommendations by category (funds to
be put to better use or questioned costs).


Table 2 . Management Decisions on OIG Reports with Recommendations that
Funds be Put to Better Use
                                                  Number of Reports               Financial Recommendations
 For which no management decision had been made as of 04/01/2011
 Less than six months old                                   6                              $30,246,424
 Six or more months old                                     1                                  $494,639
 Reports issued this period                                36                             $220,167,642
                                 TOTAL                     43                             $250,908,705
 For which a management decision was made during the reporting period
 Recommendations agreed to by
 management based on proposed –
   Management action                                       32                             $201,511,071
   Legislative action
 Recommendations not agreed to
 by management                                              0                                         $0
                                 TOTAL                     32                             $201,511,071
 For which no management decision had been made as of 09/30/2011
 Less than six months old                                  11                              $49,397,634
 Six or more months old                                     0                                         $0
                                 TOTAL                     11                              $49,397,634




                                                                                 April 1, 2011 – September 30, 2011 23
                       Statistical Summary of OIG Accomplishments



Table 3. Management Decisions on OIG Reports with Questioned Costs
                                            Number of Reports           Questioned Costs
 For which no management decision had been made as of 04/01/2011
 Less than six months old                            3                       $248,937
 Six or more months old                              0                             $0
 Reports issued this period                          25                    $65,526,523
                                  TOTAL              28                    $65,775,460
 For which a management decision was made during the reporting period
 Disallowed costs                                    20                    $65,156,031
 Cost not disallowed                                 0                             $0
                                  TOTAL              20                    $65,156,031
 For which no management decision had been made as of 09/30/2011
 Less than six months old                            8                       $619,429
 Six or more months old                              0                             $0
                                  TOTAL              8                       $619,429




24  Semiannual Report to the Congress
                        Statistical Summary of OIG Accomplishments



Investigative Workload                                            part of GSA employees, contractors, or private individuals
                                                                  doing business with the government.
The OIG opened 123 investigative cases and closed
110 cases during this period. In addition, the OIG
                                                                  During this period, the OIG also made 11 referrals to
received and evaluated 89 complaints and allegations
                                                                  GSA officials for information purposes only.
from sources other than the Hotline that involved GSA
employees and programs. Based upon our analyses of
these complaints and allegations, OIG investigations              Actions on OIG Referrals
were not warranted.                                               Based on these and prior referrals, 32 cases (56 subjects)
                                                                  were accepted for criminal prosecution and 9 cases (9
Referrals                                                         subjects) were accepted for civil litigation. Criminal cases
                                                                  originating from OIG referrals resulted in 49 indictments/
The OIG makes criminal referrals to the Department of             informations and 39 successful prosecutions. OIG civil
Justice or other authorities for prosecutive consideration,       referrals resulted in 10 case settlements. Based on OIG
and civil referrals to the Civil Division of the Department       administrative referrals, management debarred 38
of Justice or to U.S. Attorneys for litigative consideration.     contractors/individuals, suspended 53 contractors/
The OIG also makes administrative referrals to GSA                individuals, and took 12 personnel actions against
officials on certain cases disclosing wrongdoing on the           employees.



Table 4. Summary of OIG Referrals
 Type of Referral                                               Cases                              Subjects
 Criminal                                                        55                                          83
 Civil                                                           19                                          29
 Administrative                                                  58                                          77
 Suspension                                                      14                                          44
 Debarment                                                       24                                         136
                                   TOTAL                         170                                        369




                                                                                       April 1, 2011 – September 30, 2011 25
                       Statistical Summary of OIG Accomplishments



Monetary Results
Table 5 presents the amounts of fines, penalties,         of criminal and civil actions arising from OIG referrals.
settlements, recoveries, forfeitures, judgments, and      Table 6 presents the amount of administrative recoveries
restitutions payable to the U.S. Government as a result   and forfeitures as a result of investigative activities.



Table 5. Criminal and Civil Recoveries
                                                      Criminal                              Civil
 Fines and Penalties                                 $1,322,215
 Settlements                                                                            $98,546,000
 Recoveries
 Forfeitures                                        $14,317,565
 Seizures                                                 $1,480
 Restitutions                                       $12,833,307
                                  TOTAL             $28,524,567                         $98,546,000




Table 6. Other Monetary Results


 Administrative Recoveries                                                                $3,167,973
 Forfeitures                                                                                        0
                                  TOTAL                                                   $3,167,973




26  Semiannual Report to the Congress
APPENDICES




        April 1, 2011 – September 30, 2011 27
28  Semiannual Report to the Congress
                     Appendix I–Significant Audits from Prior Reports



Under the Agency audit management decision process,           The recommendations involve the OCIO working with
the GSA Office of the Chief Financial Officer, GAO and        system security officials to prioritize the implementation
IG Audit Response Branch, is responsible for tracking         of audit logging and monitoring controls for GSA
the implementation of audit recommendations after a           systems; ensuring that the multi-factor authentication is
management decision has been reached. That office             in place for all remotely-accessed systems; and
furnished the following status information.                   implementing an encryption solution for agency laptops
                                                              that integrates into GSA’s network environment. They
Thirteen audits identified in prior reports to the Congress   are scheduled for completion by January 15, 2012.
have not yet been fully implemented. These audits are
being implemented in accordance with currently
established milestones.                                       Information Technology Security Audit
                                                              of the Information Technology
Consistency in Implementing Policy                            Solution Shop (ITSS) System
                                                              Period First Reported: October 1, 2010 to March 31, 2011
Across Acquisition Centers -
Temporary Extensions                                          The objective of the audit was to determine if FAS has
Period First Reported: October 1, 2010 to March 31, 2011      implemented management, operational, and technical
                                                              security controls to effectively manage risks inherent
The objective of the audit was to determine if FAS            with a “moderate” risk system, in accordance with
acquisition centers are consistently implementing and         FISMA and GSA’s IT Security Program. The report
adhering to regulations, policies, and procedures regard-     contained four recommendations; one has not been
ing temporary extensions. The report contained three          implemented.
recommendations, which have not been implemented.
                                                              The remaining recommendation involves FAS
The recommendations involve FAS ensuring consistency          implementing two-factor authentication for remote
in implementing and adhering to regulations, policies,        access by the ITSS system administrators. It is
and procedures regarding temporary extensions;                scheduled for completion by February 15, 2012.
remedying potential financial and competition issues by
examining the contracts with performance period lapses
identified in this report; and improving FAS’s ability to     FY 2010 Information Technology
manage and reduce the need for temporary extensions
within the MAS program. They are scheduled for                Security Audit of the Electronic
completion by April 15, 2012.                                 Acquisition System (EAS)/Comprizon
                                                              Period First Reported: October 1, 2010 to March 31, 2011


FY 2010 FISMA Review of GSA’s                                 The objective of the audit was to determine if PBS has
                                                              implemented management, operational, and technical
Information Technology Security                               security controls to effectively manage risks inherent
Program                                                       with a “moderate” risk system, in accordance with
Period First Reported: October 1, 2010 to March 31, 2011      FISMA and GSA’s IT Security Program. The report
                                                              contained two recommendations; one has not been
The objective of the audit was to determine if GSA has        implemented.
developed, documented, and implemented an agency-
wide information security program. The report contained
four recommendations; three have not been
implemented.




                                                                                     April 1, 2011 – September 30, 2011 29
                     Appendix I–Significant Audits from Prior Reports



The remaining recommendation involves PBS                       The remaining recommendation involves the FAS
addressing the system security vulnerabilities identified       seeking recoveries, when economical, advisable, and
in this report to ensure that GSA IT Security Policy is         feasible from MAS vendors when there is a failure to cite
followed and that system hardening guides are properly          contractual PPD terms on invoices. It is scheduled for
implemented for all system components. It is scheduled          completion by December 15, 2011.
for completion by November 15, 2011.

                                                                Opportunities Exist to Improve GSA’s
Audit of the General Services                                   Implementation of the E2 Travel
Administration’s Fiscal Year 2010                               System
Financial Statements                                            Period First Reported: October 1, 2009 to March 31, 2010
Period First Reported: October 1, 2010 to March 31, 2011
                                                                The objective of the audit was to determine whether
The objective was to conduct an audit of GSA's                  GSA’s implementation of the E2 system is effectively
consolidated balance sheet, the individual balance              and efficiently meeting management and user needs,
sheet of the Federal Building Fund and the Acquisition          including program and financial requirements, and the
Service Fund, the related consolidated and individual           achievement of intended goals and benefits for an
statement of net cost, the changes in net position and          e-Government travel management system. The report
the combined and individual statements of budgetary             contained two recommendations, which have not been
resources for fiscal year 2010. The report contained 117        implemented.
recommendations; 28 have not been implemented.
                                                                The recommendations involve the Chief Financial
The remaining recommendations involve the Office of             Officer (CFO) taking the necessary actions to improve
the Chief Financial Officer (OCFO) working with agency          system usability and controls for system operations
officials to correct significant deficiencies related to: (1)   across GSA. They are scheduled for completion by
controls over budgetary accounts and transactions; (2)          January 15, 2012.
controls over accounting and reporting of general
property and equipment; (3) controls over accounting
and reporting of environmental liabilities; (4) controls        GSA’s Fiscal Year 2009 Financial
over revenue and expense recognition policies in the
Federal Acquisition Services Fund; and (5) general and          Statements
application controls over financial management systems.         Period First Reported: October 1, 2009 to March 31, 2010
They are scheduled for completion by July 15, 2012.
                                                                The objective of the audit was to provide a report on
                                                                internal controls over financial reporting, including
                                                                safeguarding assets and compliance with laws and
Multiple Award Schedule Vendors’                                regulations, and if necessary, to report instances in
Invoicing Practices Relative to                                 which GSA’s financial management systems did not
Prompt-Payment Discounts                                        substantially comply with the requirements of the Federal
Period First Reported: October 1, 2009 to March 31, 2010        Financial Management Improvement Act of 1996. The
                                                                report contained 85 recommendations; 3 have not been
The objective of the audit was to determine the extent to       implemented.
which the government may be at risk of losing Prompt
Payment Discount (PPD) savings as the result of MAS             The remaining recommendations involve the CFO
vendors citing incorrect payment terms on their invoices.       working with other agency officials to: develop and
The report contained seven recommendations; one has             implement a process to review and document a periodic
not been implemented.                                           review of PBS portal audit logs identifying access
                                                                violations; update web server to restrict arbitrary HTML/



30  Semiannual Report to
                      to the
                          the Congress
                              Congress
                      Appendix I–Significant Audits from Prior Reports



Code to address cross-site scripting issues; and              of pricing to the Schedules program, and price analysis
strengthen the effectiveness of OCFO policies and FAS         for risked-based sample of proposed awards or
monitoring obligations including year-end cut-off             modifications for FY 2010 and future scorecards. The
procedures to reserve outstanding obligations related to      third recommendation focuses on the establishment of
minimum revenue guarantees (MRG) as of September              an internal review program that can quantifiably assess
30, 2009 for the WAN Program. They are scheduled for          whether MAS contracts meet requirements for quality in
completion by May 15, 2012.                                   terms of compliance with laws, regulations and
                                                              guidelines. They are scheduled for completion by
                                                              February 15, 2012.
Consistency in Implementing Policy
Across Acquisition Centers
Period First Reported: April 1, 2009 to September 30, 2009    FY 2008 Office of Inspector General
                                                              FISMA Review of GSA’s Information
The objectives of the audit were to determine if policy       Technology Security Program
and related guidance for the MAS Program are being            Period First Reported: April 1, 2008 to September 30, 2008
implemented effectively by the Acquisition Centers
(Centers), and to identify best practices for use by the      The objectives of the audit were to assess the
Centers. The objectives were further narrowed to focus        effectiveness of controls over GSA systems and data
on pricing, including rate escalation and price adjustment.   and to address specific questions and reporting
The report contained four recommendations; three have         requirements identified by OMB. Four systems were
not been implemented.                                         reviewed, including one contractor system, to assess
                                                              implementation of GSA’s IT Security Program. The
The remaining recommendations involve FAS developing          report contained five recommendations; one has not
and implementing policy and training for acquisition          been implemented.
personnel on a number of subjects, including most
favored customer pricing, the use of cost analyses, and       The remaining recommendation involves the GSA Chief
the use of volume discounting during negotiations;            Information Officer taking actions to expedite the
assessing the viability of developing or establishing         implementation of encryption of mobile devices and
resources at the national level to support contracting        two-factor authentication, and work with the Office of
officers in all Centers; and ensuring the accuracy of         the Chief People Officer to promptly fulfill responsibilities
contract information published in GSA Advantage. They         for implementing a comprehensive breach notification
are scheduled for completion by January 15, 2012.             policy. It is scheduled for completion by November 15,
                                                              2011.

Performance Measurement
Improvements for the MAS Program                              Improvements to the GSA Privacy Act
Period First Reported: April 1, 2009 to September 30, 2009    Program Are Needed to Ensure That
The objective of the audit was to determine if the FAS        PII is Adequately Protected
has performance measures for MAS contracting officers         Period First Reported: October 1, 2007 to March 31, 2008
that stress the importance of contract quality, including
pricing, and if not, to identify potential performance        The objectives of the audit were to determine if GSA:
measures FAS could implement to ensure that MAS               manages sensitive personal information in accordance
contracts reflect the intent and goals of the Schedules       with legal and regulatory requirements, including
program. The report contained three recommendations,          e-Government provisions for privacy controls; has
which have not been implemented.                              implemented technical, managerial, and operational
                                                              privacy-related controls to effectively mitigate risks
Two recommendations involve the development of                inherent to Privacy Act systems of records; and, has
organizational measures emphasizing the importance            established procedures and automated mechanisms to


                                                                                     April 1, 2011 – September 30, 2011 31
                      Appendix I–Significant Audits from Prior Reports



verify control efficacy. The report contained four           The remaining recommendations involve adopting a
recommendations; one has not been implemented.               more structured approach to reduce the number of
                                                             existing underutilized schedule contracts; establishing
The remaining recommendation involves ensuring that          specific nationwide guidance related to Price Analysis
the Privacy Act Program is integrated with the agency's      Documentation Requirements and Negotiation Policies
security program.                                            and Techniques for schedule contracts; establishing
                                                             performance measures that evaluate (a) verification of
Multiple Award Schedule Program                              vendor disclosures related to Commercial Sales
                                                             Practice, (b) effectiveness in analyzing prices and
Contract Workload Management                                 conducting negotiations, and (c) consideration of the
Period First Reported: April 1, 2007 to September 30, 2007   field pricing assistance; and developing standardized
                                                             procedures for the initial screening of offers. They are
The objective of the audit was to determine if the Federal   scheduled for completion by April 15, 2012.
Acquisition Service was effectively managing the
workload associated with processing contract actions in
the Schedules program. The report contained ten
recommendations; four have not been implemented.




32  Semiannual Report to
                      to the
                          the Congress
                              Congress
                                Appendix II–Audit Report Register
				                              Financial
				Recommendations
			                      Funds to 		 Questioned
Date of	 Report		       Be Put to		 (Unsupported)
Report	  Number	 Title	 Better Use		        Costs

(Note: Because some audits pertain to contract awards or actions that have not yet been completed, the financial
recommendations related to these reports are not listed in this Appendix.)


PBS Internal Audits
06/13/11	       A090184	Recovery Act Report-Energy Retrofit for the
                         New Carrollton Federal Building Review of
                         PBS's Limited Scope and Small Construction
                         Projects Funded by the American Recovery
                         and Reinvestment Act of 2009

08/18/11	       A110171	Limited Scope Review of Southern Maryland
                         Courthouse Annex Project

08/19/11	       A090172	Recovery Act Report - GT "Mickey" Leland
                         Federal Building Renovation Project:
                         Construction Contract, Audit of PBS's Major
                         Construction and Modernization Projects
                         Funded by the American Recovery and
                         Reinvestment Act of 2009

08/19/11	       A090172	Recovery Act Report - Thurgood Marshall
                         U.S. Courthouse Project, Audit of PBS's
                         Major Construction and Modernization
                         Projects Funded by the American Recovery
                         and Reinvestment Act of 2009

09/27/11	       A110193	Implementation Review - Review of Cost
                         Estimates for the Los Angeles Courthouse
                         Project, Report Number A080125/P/R/
                         R09001, June 23, 2009

09/30/11	       A110114	FY 2011 Office of Inspector General
                         Information Technology Security Audit of
                         the Electronic Project Management System

09/30/11	       A090172	Recovery Act Report - Improper Obligation
                         of Construction Contingency Funds Review
                         of PBS's Major Construction and
                         Modernization Projects Funded by the
                         American Recovery and Reinvestment Act
                         of 2009

09/30/11	       A090169	Recovery Act Report - Installation of Foreign 		                                  $4,588
                         Bollards at Scobey Land Port of Entry
                         Review of PBS's Reimbursable Work
                         Authorization Projects Funded by the
                         American Recovery and Reinvestment Act
                         of 2009

33  Semiannual Report to the Congress                                         April 1, 2011 – September 30, 2011 33
                                Appendix II–Audit Report Register
				                              Financial
				Recommendations
			                      Funds to 		 Questioned
Date of	 Report		       Be Put to		 (Unsupported)
Report	  Number	 Title	 Better Use		        Costs


PBS Contract Audits
04/14/11	       A110106	Review of Proposed Rental Rate Increase 		                             $144,778
                         Lease Number GS-06P-40004, Internal
                         Revenue Service Center, 315 West Pershing
                         Road, Kansas City, Missouri

05/17/11	       A100183	Examination of a Claim: Moshe Safdie and
                         Associates, Inc., Contract Number GS-01P-
                         99-BWC-0016

05/24/11	       A110104	Examination of Cost Accounting Standards
                         Board Disclosure Statement: White
                         Construction Company, Contract Number
                         GS-07P-06-UEC-0059

06/01/11	       A110070	Examination of a Claim: Bergelectric
                         Corporation, Subcontractor to Caddell
                         Construction Co., Inc. Contract Number
                         GS-07P-05-UEC-3003

06/10/11	       A110121	Examination of Cost Accounting Standards
                         Board Disclosure Statements: Pepper
                         Construction Group, LLC, Contract
                         Numbers GS-05P-09-GB-C-0031 and
                         GS-05P-09-GB-D-0015

06/27/11	       A080142	Preaward Review of a Claim: Dick 		                                  $8,252,950
                         Corporation, Contract Number GS-04P-01-
                         EXC-0044

06/29/11	       A080211	Preaward Review of a Claim: John J. Kirlin,
                         Inc., Contract Number GS-04P-01-
                         EXC-0044

07/06/11	       A110098	Examination of a Claim: KenMor Electric
                         Company L.P., Subcontractor to W.G. Yates
                         & Sons Construction Company, Contract
                         Number GS-07P-05-URC-5007

07/08/11	       A110132	Preaward Examination of Architect-
                         Engineer Proposal: Smith-Miller &
                         Hawkinson Architects, LLP, Solicitation
                         Number GS11P10MKC0050




34  Semiannual Report to the Congress                                  April 1, 2011 – September 30, 2011 34
                                Appendix II–Audit Report Register
				                              Financial
				Recommendations
			                      Funds to 		 Questioned
Date of	 Report		       Be Put to		 (Unsupported)
Report	  Number	 Title	 Better Use		        Costs

07/08/11	       A110132	Preaward Examination of Architect-
                         Engineer Proposal: R.A.Heintges &
                         Associates, Subcontractor to Smith-Miller &
                         Hawkinson Architects, LLP, Solicitation
                         Number GS11P10MKC0050

07/14/11	       A110140	Preaward Examination of Architect/
                         Engineering Proposal: Lehman Smith
                         McLeish, PLLC, Subcontractor to Smith-
                         Miller & Hawkinson Architects LLP,
                         Solicitation Number GS11P10MKC0050

07/22/11	       A080188	Review of a Claim: Dynalectric Company,
                         Subcontractor to Dick Corporation, Contract
                         Number GS-04P-01-EXC-0044

07/25/11	       A100174	Examination of a Claim: Leon D. DeMatteis
                         Construction Corporation, Contract Number
                         GS-02P-04-DTC-0032(N)

07/27/11	       A100170	Examination of a Claim: Caddell
                         Construction Company, Incorporated,
                         Contract Number GS-07P-05-UEC-3003

08/03/11	       A100182	Preaward Examination of O&M Services
                         Contract: Security Construction Services,
                         Inc., Solicitation Number GS-01P-10-
                         BW-C-0026 (NEG)

08/04/11	       A110133	Preaward Examination of Architect Engineer
                         Proposal: Arup USA, Inc., Subcontractor to
                         Smith-Miller & Hawkinson Architects LLP,
                         Solicitation Number GS11P10MKC0050

08/10/11	       A110102	Examination of a Claim: W.G. Yates & Sons
                         Construction Company, Contract Number
                         GS-07P-05-URC-5007

08/15/11	       A110180	Examination of Architect and Engineering
                         Services Contract: RTKL Associates, Inc.,
                         Contract Number GS-11P-11-MK-C-0045

08/17/11	       A110195	Report on Independent Audit (Adequacy
                         Review) of J.E. Dunn Construction Co.-
                         Midwest Initial Disclosure Statement
                         Effective January 1, 2010



35  Semiannual Report to the Congress                                  April 1, 2011 – September 30, 2011 35
                                Appendix II–Audit Report Register
				                              Financial
				Recommendations
			                      Funds to 		 Questioned
Date of	 Report		       Be Put to		 (Unsupported)
Report	  Number	 Title	 Better Use		        Costs

08/22/11	       A090196	Review of Construction Management
                         Services Contract: Bovis Lend Lease LMB,
                         Inc., Contract Number GS-02P-04-DTC-
                         0028(N), Options Number 3, 5, and 6

09/01/11	       A110182	Examination of a Termination Settlement
                         Proposal: Hensel Phelps Construction
                         Company, Contract Number GS-04P-10-
                         BV-C-0065

09/06/11	       A100194	Preaward Examination of Cost or Pricing
                         Data:    Mitigation     Technologies,
                         Subcontractor to Cauldwell Wingate
                         Company, LLC, Contract Number GS-02P-
                         05-DTC-0021(N)

09/08/11	       A110021	Examination of a Claim: Myrex Industries,
                         Subcontractor to Caddell Construction
                         Company, Incorporated, Contract Number
                         GS-07P-05-UEC-3003

09/08/11	       A080166	Preaward Review of a Claim: Keenan
                         Development Associates, City of College
                         Park and the College Park Business
                         Industrial Development Authority, Lease
                         Numbers        GS-04B-30123         and
                         GS-04B-33016

09/12/11	       A110146	Examination of Conversion Proposal: White
                         Construction Company, Contract Number
                         GS-07P-06-UEC-0059

09/28/11	       A100108	Review of Construction Management
                         Services Contract: Bovis Lend Lease LMB,
                         Inc., Contract Number GS-02P-07-DTC-
                         0009(NEG), Modification Number PS05



FAS Internal Audits
05/18/11	       A100123	Audit of the Information Technology
                         Solutions Shop (ITSS) System Performance
                         and Functionality

06/09/11	       A100188	Review of GSA Fleet's Monitoring of
                         Alternative Fuel Vehicle Surcharge
                         Payments

36  Semiannual Report to the Congress                                April 1, 2011 – September 30, 2011 36
                                Appendix II–Audit Report Register
				                              Financial
				Recommendations
			                      Funds to 		 Questioned
Date of	 Report		       Be Put to		 (Unsupported)
Report	  Number	 Title	 Better Use		        Costs

06/23/11	       A110151	Implementation Review of the Corrective
                         Action Plan for the Review of the Federal
                         Acquisition Service Blanket Purchase
                         Agreements for Acquisition Management
                         Support Services, Report Number
                         A090018/Q/A/P10002 Dated March 30,
                         2010

09/29/11	        A110185	Implementation Review of the FedRooms
                          Program, Federal Acquisition Service,
                          Report Number A070167/Q/9/P08002,
                          dated February 4, 2008

09/30/11	       A110096	FY 2011 Office of Inspector General
                         Information Technology Security Audit of
                         the AT&T Operational Support System

09/30/11	       A110095	FY 2011 Office of Inspector General
                         Information Technology Security Audit of
                         the SmartPay-Citibank System



FAS Contract Audits
04/05/11	       A040249	Review of Multiple Award Schedule Contract 		                       $9,873,969
                         Number GS-35F-0702J for the Interim
                         Period August 23, 1999 Through August 31,
                         2005: Sun Microsystems, Inc.

04/05/11	       A040250	Review of Multiple Award Schedule Contract 		                     $17,676,199
                         Number GS-35F-4547G for the Period June
                         12, 1997 Through January 14, 2003: Sun
                         Microsystems, Inc.

04/06/11	       A110092	Preaward Examination of Multiple Award 		                               $2,385
                         Schedule Contract Extension: Concurrent
                         Technologies Corporation, Contract Number
                         GS-00F-0072M

04/12/11	       A100100	Preaward Review of Multiple Award
                         Schedule Contract Extension: Arcadis U.S.,
                         Inc., Contract Number GS-10F-0266K

04/14/11	       A110035	Preaward Examination of Multiple Award
                         Schedule Contract Extension: InfoReliance
                         Corporation, Contract Number GS-35F-
                         0273L

37  Semiannual Report to the Congress                                 April 1, 2011 – September 30, 2011 37
                                Appendix II–Audit Report Register
				                              Financial
				Recommendations
			                      Funds to 		 Questioned
Date of	 Report		       Be Put to		 (Unsupported)
Report	  Number	 Title	 Better Use		        Costs

04/19/11	       A110083	Preaward Examination of Multiple Award 		                              $11,363
                         Schedule Contract Extension: Stanley
                         Associates, Inc., Contract Number GS-23F-
                         0191L

04/25/11	       A100216	Preaward Examination of Multiple Award
                         Schedule Contract Extension: QuadraMed
                         Corporation, Contract Number GS-35F-
                         0171L

04/25/11	       A100223	Preaward Examination of Multiple Award
                         Schedule Contract Extension: Global Mail,
                         Incorporated, Contract Number GS-10F-
                         0208L

05/06/11	       A110043	Preaward Examination of Multiple Award
                         Schedule Contract Extension: Keypoint
                         Government Solutions, Incorporated,
                         Contract Number GS-02F-0054S

05/10/11	       A110073	Preaward Examination of Multiple Award
                         Schedule Contract Extension: PPS Infotech,
                         LLC, Contract Number GS-35F-0372L

05/12/11	       A110044	Preaward Examiniation of Multiple Award 		                              $1,243
                         Schedule Contract Extension: Vaisala, Inc.,
                         Contract Number GS-25F-6029D

05/12/11	       A100221	Preaward Examination of Multiple Award 		                            $208,889
                         Schedule Contract Extension: Mainline
                         Information Systems, Inc., Contract Number
                         GS-35F-0216L

05/13/11	       A110113	Preaward Examination of Multiple Award 		                              $25,711
                         Schedule Extension: Smiths Detection, Inc.,
                         Contract Number GS-07F-9597G

05/16/11	       A110063	Postaward Examination of Multiple Award 		                         $3,948,160
                         Schedule Contract Number GS-35F-0554K
                         for the Period January 1, 2008 to December
                         31, 2010: IntelliDyne, LLC




38  Semiannual Report to the Congress                                 April 1, 2011 – September 30, 2011 38
                                Appendix II–Audit Report Register
				                              Financial
				Recommendations
			                      Funds to 		 Questioned
Date of	 Report		       Be Put to		 (Unsupported)
Report	  Number	 Title	 Better Use		        Costs

06/01/11	       A110087	Preaward Examination of Multiple Award 		                          $649,465
                         Schedule Contract Extension: National
                         Interest Security Company, LLC, Contract
                         Number GS-25F-0032L

06/02/11	       A110085	Preaward Examination of Multiple Award
                         Schedule Contract Extension: EnviroTech
                         Environmental Services, Incorporated,
                         Contract Number GS-10F-0218L

06/07/11	       A090112	Postaward Review of Multiple Award 		                          $21,927,177
                         Schedule Contract: ITS Services, Inc.,
                         Contract Number GS-35F-5518H, for the
                         Period March 20, 1998, Through April 30,
                         2008

06/10/11	       A110115	Preaward Examination of Multiple Award 		                           $23,201
                         Schedule Contract Extension: Pacific Star
                         Communications, Inc., Contract Number
                         GS-35F-0031L

06/13/11	       A110108	Preaward Examination of Multiple Award
                         Schedule Contract Extension: Protective
                         Products Enterprises, Contract Number
                         GS-07F-9029D

06/30/11	       A090045	Limited Scope Postaward Review of Mutliple 		                       $99,693
                         Award Schedule Contract Number GS-07F-
                         0496T for the Period January 1, 2005 to
                         July 31, 2007: C-Tech Industries, Inc.

07/07/11	       A100140	Preaward Review of Multiple Award 		                                 $3,893
                         Schedule Contract Extension: Veterans
                         Imaging Products, Inc., Contract Number
                         GS-14F-0005L

07/21/11	       A100103	Preaward Review of Multiple Award 		                                $48,328
                         Schedule Contract Extension: Altarum
                         Institute, Contract Number GS-10F-0261K

07/21/11	       A110120	Preaward Examination of Multiple Award
                         Schedule Contract Extension: Deere &
                         Company, Contract Number GS-07F-9670S




39  Semiannual Report to the Congress                              April 1, 2011 – September 30, 2011 39
                                Appendix II–Audit Report Register
				                              Financial
				Recommendations
			                      Funds to 		 Questioned
Date of	 Report		       Be Put to		 (Unsupported)
Report	  Number	 Title	 Better Use		        Costs

07/26/11	       A110062	Preaward Examination of Multiple Award 		         $35,267
                         Schedule Contract Extension: Premier &
                         Companies, Inc., Contract Number GS-02F-
                         0132S

07/27/11	       A110109	Preaward Examination of Multiple Award
                         Schedule Contract Extension: Security
                         Consultants Group, Incorporated, Contract
                         Number GS-07F-0267L

07/28/11	       A110088	Postaward Examination of Multiple Award 		        $29,337
                         Schedule Contract Number GS-07F-
                         6028P for the Period January 1, 2009 to
                         December 31, 2010: Global Protection
                         USA, Inc.

08/03/11	       A100119	Preaward Review of Multiple Award
                         Schedule Contract Extension: Noble Sales
                         Co., Inc., Contract Number GS-06F-0032K

08/04/11	       A110094	Preaward Examination of Multiple Award
                         Schedule Contract Extension: Tri-Starr
                         Management Services, Incorporated,
                         Contract Number GS-25F-0037S

08/19/11	       A110111	Preaward Examination of Multiple Award
                         Schedule Contract Extension: Thermo
                         Electron North America, LLC, Contract
                         Number GS-24F-0026L

08/25/11	       A110136	Preaward Examination of Multiple Award 		         $11,599
                         Schedule Contract Extension: Konica
                         Minolta Business Solutions U.S.A., Inc.,
                         Contract Number GS-25F-0030M

08/30/11	       A040152	Review of Multiple Award Schedule Contract 		   $1,997,624
                         Number GS-35F-0158J for the Period
                         December 18, 1998 Through December 27,
                         2003: Black Box Corporation

09/09/11	       A110067	Preaward Examination of Multiple Award 		          $1,374
                         Schedule Contract Extension: Clifton
                         Gunderson, LLP, Contract Number GS-23F-
                         0135L




40  Semiannual Report to the Congress
                         Appendix II–Audit Report Register
				                              Financial
				Recommendations
			                      Funds to 		 Questioned
Date of	 Report		       Be Put to		 (Unsupported)
Report	  Number	 Title	 Better Use		        Costs

09/14/11	   A110122	Preaward Examination of Multiple Award 		                              $110,662
                     Schedule Contract: Agilent Technologies,
                     Incorporated, Contract Number GS-26F-
                     5944A

09/15/11	   A110174	Postaward Examination of Multiple Award 		                              $63,992
                     Schedule Contract Number GS-07F-
                     9029D for the Period March 5, 2010 to July
                     31, 2011: Protective Products Enterprises

09/29/11	   A110073	Limited Scope Postaward Review of
                     Multiple Award Schedule Contract: PPS 		                               $374,676
                     Infotech, LLC, Contract Number GS-35F-
                     0372L, For the Period May 1, 2001,
                     Through June 30, 2011



Other Internal Audits
07/20/11	   A090023	Review of the Acquisition Career
                     Management Information System (ACMIS)

09/22/11	   A110086	Audit of GSA's Transition from FTS2001 to
                     Networx

09/28/11	   A110160	FY 2011 Office of Inspector General FISMA
                     Audit of GSA's Information Technology
                     Security Program

09/30/11	   A110082	     Audit of GSA's Hiring Practices

09/30/11	   A110116	Audit of the GSA's Billing and Accounts
                     Receivable Module Implementation

09/30/11	   A110190	Implementation Review of Corrective Action
                     Plan of the Audit of GSA's Fiscal Year 2009
                     Direct Pay Purchases, Report Number
                     A100137/B/F/F10004 dated September 30,
                     2010




                                                                   April 1, 2011 – September 30, 2011 41
 Appendix III–OIG Reports over 12 Months Old, Final Agency Action Pending
Public Law 104-106 requires the head of a Federal agen-        In GSA, the Office of the Chief Financial Officer (OCFO)
cy to complete final action on each management deci-           is responsible for monitoring and tracking open recom-
sion required with regard to a recommendation in an            mendations. While we continue to assist the Agency in
Inspector General's report within 12 months after the          resolving these open items, various litigative proceed-
date of the report. If the head of the Agency fails to com-    ings, continuing negotiations of contract proposals, and
plete final action within the 12-month period, the Inspector   corrective actions needed to undertake complex and
General shall identify the matter in the semiannual report     phased-in implementing actions often delay timely com-
until final action is complete.                                pletion of the final action.

The OCFO provided the following list of reports with action items open beyond 12 months:

Date of	        Report
Report	         Number	                                            Title	


Attestation Engagements
03/25/03	        A030140	Limited Scope Review of Termination Claim: Science Applications International
                          Corp., Contract Number GS-35F-4461G

04/18/06	        A050122	Review of Industrial Funding Fee Remittances: Fasternal Company, Contract Number
                          GS-06F-0039K

08/28/07	        A060196	Preaward Review of Request for Equitable Adjustment: Tigard Electric, Incorporated,
                          Contract Number GS-10P-02-LTC-0025

04/29/08	        A080084	Review of Change Order Proposal for Resolution of Wage Rate: Kenmor Electrical
                          Company, LP, Contract Number GS-07P-05-URC-5007

08/05/08	        A080077	Preaward Review of Multiple Award Schedule Contract Extension: Gartner, Inc.,
                          Contract Number GS-35F-5014H

12/12/08	        A080177	Preaward Review of Multiple Award Schedule Contract Extension: Tecolote Research,
                          Incorporated, Contract Number GS-35F-5115H

12/29/08	        A090042	Postaward Audit Report on Direct Costs Incurred on Trilogy Project: Computer
                          Sciences Corporation, Contract Number GS00-T99-ALD204

01/20/09	        A080136	Preaward Review of Multiple Award Schedule Contract Extension: Dynamic
                          Decisions, Inc., Contract Number GS-35F-5879H
02/04/09	        A080067	Preaward Review of Multiple Award Schedule Contract Extension: Haworth, Inc.,
                          Contract Number GS-28F-8014H

03/03/09	        A080085	Preaward Review of Multiple Award Schedule Contract Extension: The HON
                          Company, Contract Number GS-28F-8047H

03/23/09	        A080212	Preaward Review of Multiple Award Schedule Contract Extension: Phillips
                          Corporation--Federal Division, Contract Number GS-07F-7729C

04/27/09	        A080210	Preaward Review of Multiple Award Schedule Contract Extension: Immix Technology,
                          Inc., Contract Number GS-35F-033J

06/11/09	        A080077	Limited Scope Postaward Review of Multiple Award Schedule Contract: Gartner,
                          Inc., Contract Number GS-35F-5014H

07/08/09	        A090007	Preaward Review of Multiple Award Schedule Contract Extension: Booz Allen
                          Hamilton, Inc., Contract Number GS-35F-0306J

42  Semiannual Report to the Congress
Appendix III–OIG Reports over 12 Months Old, Final Agency Action Pending
Date of	    Report
Report	     Number	                                    Title	

08/06/09	   A090145	Preaward Review of Multiple Award Schedule Contract Extension: BTAS, Inc.,
                     Contract Number GS-35F-0546J

08/19/09	   A090106	Preaward Review of Multiple Award Schedule Contract Extension: Perot Systems
                     Government Services, Inc., Contract Number GS-00F-0049M

08/21/09	   A090090	Preaward Review of Multiple Award Schedule Contract Extension: Ezenia!, Inc.,
                     Contract Number GS-35F-0475P

08/21/09	   A080030	Preaward Review of Multiple Award Schedule: Hewlett-Packard Company, Solicitation
                     Number FCIS-JB-980001-B

08/27/09	   A090228	Report on Audit of Parts of A Firm Fixed Price Proposal for Architectural and
                     Engineering Services on the New St. Elizabeth's West Campus of the U.S.
                     Department of Homeland Security Headquarters and Consolidated National
                     Operations Center (NOC): Greenhorne & O'Mara, Inc., Solicitation Number GS11-
                     P08-MKC0079

09/03/09	   A090089	Preaward Review of Multiple Award Schedule Contract Extension: Mohawk Carpet
                     Corporation, Lees Carpets Division, Contract Number GS-27F-0031N

09/04/09	   A090254	Report on Audit of Parts of a Firm Fixed price Proposal for Architectural and
                     Engineering Services on the New St. Elizabeth's West Campus of the U.S.
                     Department of Homeland Security Headquarters and Consolidated National
                     Operations Center (NOC): Greenhorne & O'Mara, Inc., Solicitation Number GS11-
                     P08-MKC0080

09/04/09	   A090074	Preaward Review of Multiple Award Schedule Contract Extension: Tech Flow, Inc.,
                     Contract Number GS-35F-0210J

09/09/09	   A090232	Report on Audit of Parts of a Firm Fixed Price Proposal for Architectural and
                     Engineering Services on the New St. Elizabeth's West Campus of the United States
                     Department of Homeland Security Headquarters and Consolidated National
                     Operations Center in Washington, DC: Haley & Aldrich, Inc., Solicitation Number
                     GS11-P08-MKC0079

09/10/09	   A090234	Report on Audit of Direct Labor Rates, Indirect Rates, and Other Direct Costs: HDR
                     Architecture, Inc., Solicitation Number GS11-P08-MKC0079

09/25/09	   A090118	Interim Postaward Review of Multiple Award Schedule Contract: Murray-Benjamin
                     Electric Co., Contract Number GS-35F-0088N

10/21/09	   A080155	Limited Scope Postaward Review of Multiple Award Schedule: Cascades
                     Technologies, Inc., Contract Number GS-35F-0293N

10/23/09	   A090170	Preaward Review of Multiple Award Schedule Contract Extension: eTouch Systems
                     Corporation, Contract Number GS-35F-0627P

11/09/09	   A090202	Preaward Review of Multiple Award Schedule Contract Extension: Computech, Inc.,
                     Contract Number GS-35F-0108K

11/17/09	   A080144	Preaward Review of Multiple Award Schedule Contract Proposal: BMC Software,




                                                                       April 1, 2011 – September 30, 2011 43
Appendix III–OIG Reports over 12 Months Old, Final Agency Action Pending
Date of	       Report
Report	        Number	                                       Title	

                                Inc., Solicitation Number FCIS-JB-980001-B

12/10/09	       A090159	Preaward Review of Multiple Award Schedule Contract Extension: RCF Information
                         Systems, Inc., Contract Number GS-35F-0613J

12/16/09	       A090101	Review of a Claim: Paramount Mechanical Corp., Subcontractor to PJ Dick, Inc.,
                         Contract Number GS-11P-02-MKC-0055

02/24/10	       A090198	Preaward Review of Multiple Award Schedule Contract Extension: IBIS Tek, LLC,
                         Contract Number GS-07F-5505R

03/22/10	       A090187	Preaward Review of Multiple Award Schedule Contract Extension: B&H Foto &
                         Electronics Corp., Contract Number GS-03-F-0022R

04/19/10	       A100158	Report on Audit of Parts of a Proposal Submitted as a Subcontractor in Response
                         to Solicitation No. GS-11P-05-MKC-0033: Chermayeff & Geismar Partners, LLC,
                         Solicitation No. GS-11P-05-MK-C0033

04/19/10	       A100159	Report on Audit of Parts of a Proposal Submitted in Response to Solicitation No.
                         GS-11P-05-MKC-0033: Beyer Blinder Belle Architects and Planners, LLP, Solicitation
                         No. GS-11P-05-MKC-0033

06/16/10	       A100147	Limited Scope Postaward Examination of Architect/Engineering Proposal: AECOM
                         Transportation, a Division of AECOM U.S., Subcontractor to Ross Drulis Cusenbery,
                         Architecture, Incorporated, Contract Number GS-09P-03-KTC-0091

06/23/10	       A090222	Preaward Review of Multiple Award Schedule Contract Extension: Force 3, Inc.,
                         Contract Number GS-35F-0785J

06/24/10	       A090108	Preaward Review of Multiple Award Schedule Contract Extension: Integrated Data
                         Services, Inc., Contract Number GS-35F-0372J

06/30/10	       A100081	Preaward Review of Multiple Award Schedule Contract Extension: Fleishman-Hillard,
                         Inc., Contract Number GS-23F-0117K

07/06/10	       A080070	Preaward Review of Multiple Award Schedule Contract Extension: Accenture, LLP,
                         Contract Number GS-35F-4692G

07/21/10	       A100126	Examination of a Claim: TechTeam Government Solution, Inc., Solicitation Number
                         GS-00V-08-PDD-0071

08/16/10	       A090130	Limited Review of Multiple Award Schedule: Cort Business Furniture, Contract
                         Number GS-28F-7018G

08/24/10	       A090140	Postaward Review of Multiple Award Schedule Contract: Systems Research and
                         Applications Corporation, Contract Number GS-35F-0735J

09/15/10	       A080124	Limited Scope Postaward Contract Review: ASAP Software Express, Inc., Contract
                         Number GS-35F-4027D

09/16/10	       A100148	Examination of a Change Order Proposal: Alutiiq International Solutions, LLC,
                         Solicitation Number GS-08P-08-JFC-0005




44  Semiannual Report to the Congress
Appendix III–OIG Reports over 12 Months Old, Final Agency Action Pending
Date of	     Report		                                                                    Projected Final
Report	      Number	 Title	                                                              Action Date


Internal Audits
07/31/07	    A060190	Review of Multiple Award Schedule Program Contract                 04/15/2012
                      Workload Management

09/12/07	    A070180	Alert Report on Security of GSA’s Electronic Messaging             03/30/2012
                      Services and National Notes Infrastructure

03/31/08	    A060228	Improvements to the GSA Privacy Act Program are Needed             11/15/2011
                      to Ensure that Personally Identifiable Information is
                      Adequately Protected

09/11/08	    A080081	FY 2008 Office of Inspector General FISMA Review of                11/15/2011
                      GSA’s Information Technology Security Program

09/30/09	    A070118	Review of Consistency in Implementing Policy Across                01/15/2012
                      Acquisition Centers

09/30/09 	   A070171 	Review of Program Performance Measurement for                     02/15/2012
                       Procurement

01/08/10	    A090062	Audit of the General Services Administration’s Fiscal Year         05/15/2012
                      2009 Financial Statements

03/15/10	    A090026	Review of Multiple Award Schedule Vendors’ Invoicing               12/15/2011
                      Practices Relative to Prompt-Payment Discounts

03/31/10	    A090126	FY 2009 Office of Inspector General Information Technology         04/15/2012
                      Security Audit of the Office of the Chief Financial Officer’s
                      Corporate Information Network

03/31/10	    A080180	Opportunities Exist to Improve GSA’s Implementation of the         01/15/2012
                      E2 Travel System

06/11/10	    A090203	Review of Controls over Contract Awards and Modifications          01/15/2012
                      within the Center for Information Technology Schedule
                      Programs

08/17/10	    A090018	Review of the Use of Multiple Award Schedule Contracts for         12/15/2011
                      Acquisition Management Support Services




                                                                         April 1, 2011 – September 30, 2011 45
       Appendix IV–Government Contractor Significant Report Findings



The National Defense Authorization Act for Fiscal Year 2008, P.L. 110-181, requires each Inspector General appointed
under the Inspector General Act of 1978 to submit an annex, on final, completed contract audit reports issued to the
contracting activity, as part of its Semiannual Report to the Congress. The annex addresses significant audit findings –
unsupported, questioned, or disallowed costs in excess of $10 million, or other significant contracting issues. During this
reporting period, this office issued two contract reports that met these requirements.

The first was a review of a multiple award schedule contract with Sun Microsystems, Inc. (Sun), in which we found that
the GSA contract was awarded based on inaccurate and incomplete commercial business practice information. The
review, covering the period June 12, 1997, through January 14, 2003, indentified numerous contract administration and
compliance deficiencies, including Sun’s failure to comply with the requirements of the price reduction clause, inaccurate
reporting and underpayment of the Industrial Funding Fee, and incorrect billings, particularly billing sales tax despite
GSA’s tax-exempt status. Based on the findings of the review, we calculated a refund due the government of $17,676,199.

The second was a postaward review of a multiple award schedule contract with ITS Services, Inc. This review was
initiated based on the findings of a preaward review of the company’s proposal to extend its existing contract. The
preaward review identified two issues involving overbillings under the existing contract: the use of incorrect billing rates
for subcontract labor and the inappropriate application of a handling fee to other direct costs. The postaward confirmed
these findings and concluded that the government is due a refund of $21,927,177 as a result of these overbillings:
($18,872,349 related to the application of incorrect labor billing rates to subcontract labor, and $3,054,828 related to the
inappropriate handling fee).




46  Semiannual Report to the Congress
             Appendix V–OIG Reports Without Management Decision



Section 5(a)(10) of the IG Act as amended, requires a summary of each report issued before the commencement of
the reporting period for which no management decision has been made by the end of the reporting period. GSA has a
system in place to track reports and management decisions. Its purpose is to ensure that recommendations and
corrective actions indicated by the OIG and agreed to by management are addressed as efficiently and expeditiously
as possible. This period there were no reports that met this requirement.




                                                                               April 1, 2011 – September 30, 2011 47
                                Appendix VI–Peer Review Results



The Dodd-Frank Wall Street Reform Act requires each Inspector General to submit an appendix containing: the
results of any peer review conducted by another Office of Inspector General (OIG) during the reporting period or if no
peer review was conducted, a statement identifying the date of the last peer review conducted; a list of any outstanding
recommendations from any peer review conducted by another OIG that have not been fully implemented, the status
of the recommendation and an explanation why the recommendation is not complete; and, a list of any peer reviews
conducted by the OIG of another Office of Inspector General during the reporting period, including a list of any
outstanding recommendations made from any previous peer review that have not been fully implemented.

The Office of Investigations' last peer review (2010) was conducted by the Department of Energy Office of Inspector
General, which resulted in an opinion that the Office of Investigations system of internal safeguards and management
procedures were in compliance with the quality standards established by the CIGIE and applicable Attorney General
guidelines. The last peer review conducted for the Office of Audits was in September 2009. No material findings were
reported from any peer review. In addition, we did not conduct any peer reviews of another OIG during this reporting
period. As such, there are no outstanding recommendations made from any peer reviews that have not been fully
implemented.




48  Semiannual Report to the Congress
                                     Appendix VII–Reporting Requirements


The table below cross-references the reporting                                    Supplemental Appropriations and Rescission Bill, the
requirements prescribed by the Inspector General Act of                           National Defense Authorization Act and the Dodd-Frank
1978, as amended, to the specific pages where they are                            Wall Street Reform Act are also cross-referenced to the
addressed. The information requested by the Congress                              appropriate page of the report.
in Senate Report No. 96-829 relative to the 1980


Requirement	                                                                                                                                       Page

  Inspector General Act

     Section 4(a)(2) – Review of Legislation and Regulations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20

     Section 5(a)(1) – Significant Problems, Abuses, and Deficiencies . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1–9

     Section 5(a)(2) – Recommendations with Respect to Significant
     Problems, Abuses, and Deficiencies. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1–9

     Section 5(a)(3) – Prior Recommendations Not Yet Implemented . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29

     Section 5(a)(4) – Matters Referred to Prosecutive Authorities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25

     Sections 5(a)(5) and 6(b)(2) – Summary of Instances Where
     Information Was Refused . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . none

     Section 5(a)(6) – List of OIG Reports. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33

     Section 5(a)(7) – Summary of Each Particularly Significant Report. . . . . . . . . . . . . . . . . . . . . . . . . . . 1–9

     Section 5(a)(8) – Statistical Tables on Management Decisions on Questioned Costs . . . . . . . . . . . . . . 24

     Section 5(a)(9) – Statistical Tables on Management Decisions on
     Recommendations That Funds Be Put to Better Use. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

     Section 5(a)(10) – Summary of OIG Reports Issued Before the Commencement of the
     Reporting Period for Which No Management Decision Has Been Made. . . . . . . . . . . . . . . . . . . . . . . . . 47
     Section 5(a)(11) – Description and Explanation for Any Significant
     Revised Management Decision. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . none

     Section 5(a)(12) – Information on Any Significant Management
     Decisions with Which the Inspector General Disagrees . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . none

  Senate Report No. 96-829

     Resolution of Audits. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22

  National Defense Authorization Acts

     Public Law 104-106, 5 U.S.C. app. 3, § 5 note. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 42

     Public Law 110-181. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 46

  Dodd-Frank Wall Street Reform Act

     Peer Review Results. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 48


                                                                                                                April 1, 2011 – September 30, 2011 49
                             Appendix VIII–OIG Offices and Key Officials



  Office of the Inspector General
  Inspector General, Brian D. Miller (J)........................................................................................(202) 501-0450
  Deputy Inspector General, Robert C. Erickson (JD).................................................................(202) 501-0450
  Director of Communications and Congressional Affairs, Dave Farley (JX).................................(202) 219-1062


  Office of Counsel to the Inspector General
  Counsel to the IG, Richard Levi (JC)........................................................................................(202) 501-1932


  Office of Forensic Auditing, Evaluation, and Analysis
  Director, Patricia D. Sheehan (JE)...........................................................................................(202) 273-4989


  Office of Audits
  Assistant IG for Auditing, Theodore R. Stehney (JA)................................................................(202) 501-0374
  Principal Deputy Assistant IG for Auditing, Regina M. O’Brien (JAD)........................................(202) 501-0374
  Director, Audit Planning, Policy, and Operations Staff, Lisa L. Blanchard (JAO)......................(202) 273-7271
  Director, Administration and Data Systems Staff, Thomas P. Short (JAS)...............................(202) 501-1366
  Director, Special Projects Office, Paul J. Malatino (JA)............................................................(202) 208-0021


  Deputy Assistant Inspectors General for Auditing
  Finance and Information Technology Audit Office, Carolyn Presley-Doss (JA-F) .....................(202) 357-3620
  Real Property Audit Office, Rolando N. Goco (JA-R)................................................................(202) 219-0088
  Acquisition Programs Audit Office, Kenneth L. Crompton (JA-A)..............................................(703) 603-0189


  Regional Inspectors General for Auditing
  Northeast and Caribbean Field Office, Steven D. Jurysta (JA-2) . ............................................(212) 264-8620
  Mid-Atlantic Field Office, James M. Corcoran (JA-3)................................................................(215) 446-4840
  Southeast Sunbelt Field Office, James D. Duerre (JA-4)..........................................................(404) 331-5125
  Great Lakes Field Office, Adam R. Gooch (JA-5).....................................................................(312) 353-7781
  The Heartland Field Office, John F. Walsh (JA-6).....................................................................(816) 926-7052
  Greater Southwest Field Office, Rodney J. Hansen (JA-7)........................................................(817) 978-2571
  Pacific Rim Field Office, James P. Hayes (JA-9)......................................................................(415) 522-2744




50  Semiannual Report to the Congress
                         Appendix VIII–OIG Offices and Key Officials



Office of Investigations
Assistant IG for Investigations, Geoffrey Cherrington (JI)..........................................................(202) 501-1397
Deputy Assistant IG for Investigations, Lee Quintyne (JID).......................................................(202) 501-1397
Director, Investigations Operations Division, Gerald R. Garren (JIB).......................................(202) 501-4583
Director, Internal Operations Division, Bruce S. McLean (JII)..................................................(202) 208-2384


Special Agents in Charge (SAC)
Mid-Atlantic Regional Office, SAC Christopher P. Cherry (JI-W)..............................................(202) 252-0008
Philadelphia Regional Office, SAC James E. Adams (JI-3).......................................................(215) 861-3550
Northeast and Caribbean Regional Office, SAC James E. Adams (JI-2)...................................(215) 861-3550
Boston Regional Office, SAC Luis A. Hernandez (JI-1)............................................................(617) 565-6820
Southeast Regional Office, SAC James Taylor (JI-4)...............................................................(404) 331-3084
Ft. Lauderdale Resident Office, SA Dietrich Bohmer (JI-4M)....................................................(954) 356-6993
Central Regional Office, SAC Stuart G. Berman (JI-5).............................................................(312) 353-7779
Mid-West Regional Office, SAC John F. Kolze (JI-6)................................................................(816) 926-7214
Denver Resident Office, SA Christopher C. Hamblen (JI-8).....................................................(303) 236-5072
Southwest Regional Office, SAC Paul W. Walton (JI-7)............................................................(817) 978-2589
Western Regional Office, SAC Bryan D. Denny (JI-9)..............................................................(415) 522-2755
Laguna Niguel Resident Office, SA Theresa Quellhorst (JI-9L)................................................(949) 360-2214
Northwest Regional Office, SAC Terry J. Pfeifer (JI-10)............................................................(253) 931-7654


Office of Administration
Assistant IG for Administration, Larry Lee Gregg (JP)...............................................................(202) 219-1041
Deputy Assistant IG for Administration, Stephanie Burgoyne (JP).............................................(202) 273-5006
Budget and Financial Management Office, Director Stephanie Burgoyne (JPB).......................(202) 273-5006
Executive Resources Staff/Human Capital Officer, Jack Mossop (JPE)....................................(202) 501-0821
Human Resources Division, Director Denise McGann (JPH)....................................................(202) 501-1734
Information Technology Division, Director Rickey Eaton (JPM).................................................(703) 603-2323
Facilities and Services Office, Supervisor Carol Mulvaney (JPF).............................................(202) 501-3119
Contracting Office, Team Leader Myra R. Hayes (JPC)...........................................................(202) 501-2887




                                                                                              April 1, 2011 – September 30, 2011 51
                                        Notes




52  Semiannual Report to the Congress
Notes




        April 1, 2011 – September 30, 2011 53
                                        Notes




54  Semiannual Report to the Congress
Make
like
it’s
your
money!
It is.
To report suspected waste, fraud, abuse, or
mismanagement in GSA, call your

Inspector General’s Hotline
Toll-free 1-800-424-5210
Washington, DC metropolitan area
(202) 501-1780

or write:	 GSA, IG, Hotline Officer
	          Washington, DC 20405

or access the Web:	www.gsaig.gov/hotline.htm

Office of Inspector General
U.S. General Services Administration
Office of Inspector General
U.S. General Services Administration
1800 F Street, NW
Washington, DC 20405
http://www.gsaig.gov
